<html>
<title> - THE IMPACT OF AQUATIC INVASIVE SPECIES ON THE GREAT LAKES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
        THE IMPACT OF AQUATIC INVASIVE SPECIES ON THE GREAT LAKES

=======================================================================

                                (110-14)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 7, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
34-785                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             RICHARD H. BAKER, Louisiana
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California           JOHN R. `RANDY' KUHL, Jr., New 
ELEANOR HOLMES NORTON, District of   York
Columbia                             CHARLES W. BOUSTANY, Jr., 
BOB FILNER, California               Louisiana
ELLEN O. TAUSCHER, California        JEAN SCHMIDT, Ohio
MICHAEL E. CAPUANO, Massachusetts    CANDICE S. MILLER, Michigan
GRACE F. NAPOLITANO, California      THELMA D. DRAKE, Virginia
MICHAEL A ARCURI, New York           JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

Summary of Subject Matter........................................    vi

                               TESTIMONY

                                                                   Page
Becker, Hon. Gary, Mayor, City of Racine, Wisconsin..............    13
Buchsbaum, Andy, Director, National Wildlife Federation's Great 
  Lakes Office and Co-Chair, Healing Our Waters Great Lakes 
  Coalition......................................................    27
Debeaussaert, Ken, Director, Michigan Office of the Great Lakes..    13
Ettawageshik, Hon. Frank, Tribal Chairman, Little Traverse Bay 
  Bands of Odawa Indians;........................................    13
Grumbles, Hon. Benjamin H., Assistant Administrator for Water, 
  United States Environmental Protection Agency..................     2
Kahabka, John M., Manager of Environmental Operations, New York 
  Power Authority................................................    27
Lodge, David M., Professor, Department Of Biological Sciences, 
  University Of Notre Dame.......................................    27
Ojard, Adolph N., President, American Great Lakes Ports 
  Association, Executive Director, Duluth Seaway Port Authority..    27

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Baker, Hon. Richard H., of Louisiana.............................    38
Costello, Hon. Jerry F., of Illinois.............................    40
Johnson, Hon. Eddie Bernice, of Texas............................    43
Kagen, Hon. Steve, of Wisconsin..................................    48
Oberstar, Hon. James L., of Minnesota............................    51
Petri, Hon. Thomas E., of Wisconsin..............................    56
Salazar Hon. John T., of Colorado................................    57

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Becker, Hon. Gary................................................    59
Buchsbaum, Andy..................................................    63
DeBeaussaert, Ken................................................   166
Ettawageshik, Frank..............................................   193
Grumbles, Hon. Benjamin..........................................   202
Kahabka, John M.,................................................   211
Lodge, David M.,.................................................   217
Ojard, Adolph N.,................................................   242

                       SUBMISSIONS FOR THE RECORD

Buchsbaum, Andy, Director, National Wildlife Federation's Great 
  Lakes Office and Co-Chair, Healking Our Waters Great Lakes 
  Coalition:

  Prescription for Great Lakes Ecosystem Protection and 
    Restoration..................................................    74
  Ecosystem Shock: The Devastating Impacts of Invasive Species on 
    the Great Lakes Food Web.....................................   113
Lodge, David M., Professor, Department of Biological Sciences, 
  University of Notre Dame, Impact of Aquatic Invasive Species in 
  the Great Lakes................................................   226

                        ADDITIONS TO THE RECORD

Saint Lawrence Seaway Development Corporation, Collister Johnson, 
  Jr., Administrator, statement..................................   248
Tip of the Mitt Watershed Council, Jennifer McKay, Policy 
  Specialist, written statement..................................   253

[GRAPHIC] [TIFF OMITTED] T4785.001

[GRAPHIC] [TIFF OMITTED] T4785.002

[GRAPHIC] [TIFF OMITTED] T4785.003

[GRAPHIC] [TIFF OMITTED] T4785.004

[GRAPHIC] [TIFF OMITTED] T4785.005

[GRAPHIC] [TIFF OMITTED] T4785.006

[GRAPHIC] [TIFF OMITTED] T4785.007

[GRAPHIC] [TIFF OMITTED] T4785.008



  HEARING ON THE IMPACT OF AQUATIC INVASIVE SPECIES ON THE GREAT LAKES

                              ----------                              


                        Wednesday, March 7, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [chairman of the committee] presiding.
    Mr. Costello. [Presiding] The Subcommittee will come to 
order. I want to welcome all of our witnesses here today, and 
thank you for being here.
    The Chair of this Subcommittee, Eddie Bernice Johnson, is 
on the Floor managing a bill right now. So as soon as she is 
finished, I think there were three amendments that they were 
debating to the bill. As soon as she completes her work on the 
Floor, I would expect that we will have votes in the next 15 
minutes or so. We will come back and she will be in the chair 
at that time.
    So at this time, I would ask unanimous consent that the 
full statements of both the Chairperson of this Subcommittee, 
Eddie Bernice Johnson, and my statement be included in the 
record, and any other opening statements that members would 
like to submit for the record.
    Hearing no objection, so ordered.
    I want to welcome our witnesses here today. The first panel 
is seated, and we will proceed to recognize you in order. We 
will be under the five minute rule. As we proceed under the 
five minute rule, we would ask our witnesses to summarize their 
testimony within five minutes and then we will recognize the 
other witnesses and there will be time for questions as well.
    We are very pleased to have a very distinguished panel of 
witnesses on our panel here this afternoon. First, we have the 
Honorable Benjamin H. Grumbles, the Assistant Administrator for 
Water for the United States EPA. Next we have the Honorable 
Frank Ettawageshik, the Tribal Chairman of the Little Traverse 
Bay Band of Odawa Indians. Next we have the Honorable Gary 
Becker, the Mayor of the City of Racine, Wisconsin. He is also 
testifying on behalf of the Great Lakes and St. Lawrence Cities 
Initiative. Finally, we have the Honorable Ken DeBeaussaert, 
Director of the Office of the Great Lakes for the State of 
Michigan, and also testifying on behalf of the Great Lakes 
Commission.
    So before we go to our witnesses, I would recognize at this 
time Dr. Ehlers, sitting in for the Ranking Member of this 
Subcommittee.
    Mr. Ehlers. Thank you very much, Mr. Chairman. It is a 
pleasure to be here. I have spent a lot of time on invasive 
species issues, including sponsoring several bills on that. I 
appreciate your taking this issue up.
    Also, I am filling in for the Ranking Member. For those who 
are not familiar with political nomenclature in the Congress, 
Ranking Member does not mean the most rank member----
    [Laughter.]
    Mr. Ehlers.--but rather the highest ranking Republican. So 
I am filling in for Mr. Baker, who has to be on the Floor for a 
short period of time. He has a statement that he has presented 
and rather than read it, Mr. Chairman, I will just move that 
his statement be entered into the record.
    Mr. Costello. Without objection.
    Mr. Ehlers. Thank you very much. I reaffirm my pleasure at 
being here. As the sponsor of several bills, the sooner we can 
act on this, the better.
    I might also express my pleasure at the panel selected. I 
know all of them personally, I have worked with all of them on 
this issue, and I am sure we are going to hear words of great 
wisdom from all of them.
    With that, I will yield back.
    Mr. Costello. Thank you, Dr. Ehlers.
    I understand that, Mr. Grumbles, you have to leave at 3:00 
o'clock, is that correct? What we will do then is we will ask 
you to present your testimony first. After you conclude, I will 
ask Subcommittee members if they have questions for you. So 
before we go to the other witnesses, we will let you give your 
testimony, and then we will have an opportunity to ask 
questions at that time.
    So if you will proceed, and again, thank you for being 
here.

  TESTIMONY OF THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT 
ADMINISTRATOR FOR WATER, UNITED STATES ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Grumbles. Thank you, Mr. Chairman, and Congressman 
Ehlers, in particular, I want to thank you for your leadership 
over the years on the Great Lakes. And Congressman Salazar, 
thank you as well for your leadership on this important 
Subcommittee and for convening this hearing on one of the most 
pressing and important environmental, ecological and economic 
threats to the Great Lakes, and to the Country, and that is 
invasive species. The Great Lakes is a vast but fragile 
ecosystem, and the focus of this hearing is appropriate, it 
focuses on one of the greatest threats, invasive species.
    On behalf of Administrator Steve Johnson of EPA and also 
the Great Lakes Interagency Task Force, I am delighted to 
present testimony describing important actions that are 
underway and additional actions that are needed to respond to 
this great challenge.
    The first thing I would say, Mr. Chairman, is that the 
President's Executive Order in May of 2004 did several things, 
one of which was to establish an interagency task force. 
Another was to support the important work of a regional 
collaboration. This regional collaboration was an impressive 
fusion of ecology and democracy to bring together groups, 
government, non-governmental groups from all levels to work on 
the challenges to the Great Lakes. One of the highest and most 
important priorities has been to make further progress in 
reducing the spread and preventing the introduction of invasive 
species. Seven of the 48 near-term actions that the 
Administration agreed to in the context of the follow-up to the 
executive order and the regional collaboration specifically 
focus on invasive species.
    As you know, and all of the folks in this room know, who 
are here to celebrate and also recommit to the importance of 
the Great Lakes know, that invasive species are one of the 
greatest challenges. There are approximately 180 aquatic 
invasive species that have been introduced over the years into 
the Great Lakes, an average of one every eight months, a new 
invasive species is introduced. We all know that this is an 
environmental and an ecological threat, and a very significant 
one at that. Some of the estimates are that the costs for the 
treatment and control of zebra mussel impacts on industrial and 
municipal facilities are estimated at $100 million to $200 
million annually, just in the Great Lakes. And of course, there 
is the ecological damage beyond the economic damage, the 
ecological damage and disruption of the food chain, as well as 
the potential spread of different type of viruses and diseases 
that can affect birds and fish and people.
    Another one of the menacing species knocking at the door of 
the Great Lakes is the Asian carp. The Asian carp can grow 
rapidly to over 100 pounds. They can breed so fast that 
Australians have named them river rabbits. They could have a 
devastating impact on the Great Lakes by out-competing native 
fish for plankton. That is why we feel it is so important to 
continue to make progress on a sustainable approach of physical 
barriers, such as the Asian carp, or the electrical barriers 
preventing the introduction of carp to Lake Michigan, as well 
as many other steps.
    Mr. Chairman, I want to focus on some of the important 
actions to date. The testimony goes into great detail. EPA is 
strongly supported by agencies such as the U.S. Fish and 
Wildlife Service, various councils and task forces and resource 
groups. The basic point is, we all recognize, working with our 
State and local and non-governmental partners, we need to do 
more, we need to do much more in terms of the invasive species 
threat. Some of the specific things that I would like to 
comment on are the agreement that EPA has with the Coast Guard. 
We are a cooperating agency in an extremely important effort 
that the Coats Guard has underway, and that is to propose 
ballast water treatment standards. We think it is extremely 
important for Congress to act on this issue of invasive species 
in the Great Lakes and beyond. We think that there are many 
important tools to use, such as NAISA and reauthorizing and 
strengthening that statute. We think it is important to move 
beyond just exchange to treatment. That is why we support 
strengthening of the overall standards and framework for 
regulating ballast water.
    And Mr. Chairman, I would be delighted to answer questions 
at the appropriate time. Thanks very much for the opportunity 
to testify.
    Mr. Costello. Thank you, Mr. Grumbles.
    Let me recognize at this time Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, Mr. Grumbles, you commented several times 
about the ecological and economic threat we face. I think it is 
more than a threat, it is an ecological and environmental 
disaster. The costs that we are incurring with this is just 
outrageous, just in Michigan alone, when you look at the 
figures for dealing with the zebra mussel and some of the other 
species coming in.
    And I am just getting awfully frustrated with the slow pace 
at which we are addressing this. It is typical Government 
action. I know I am part of the Government. But there is always 
this dispute about who is supposed to do what. Take for 
example, the electronic barrier to keep the Asian carp out of 
the Great Lakes. I have been beating people up on that for 
years. But they says, well, the Corps of Engineers has to do 
it. The Corps says, well, we don't have the money to do it. 
Then it comes to the problem of maintenance, who is going to 
maintain it afterwards. The Corps doesn't have maintenance 
money. The local communities aren't sure they have enough 
money. And it is just going on and on. If that Asian carp ever 
gets through there into the Great Lakes, we are talking at 
least a $6 billion a year cost, all because we don't have the 
money to put a few million dollars into electronic barriers.
    A specific question on the ballast water standards, I 
appreciate that the Coast Guard is finally getting into action 
on that. They were given responsibility by the Congress in the 
early 1990's to address this and never have. So now they are 
setting ballast water standards. I appreciate that they are 
setting ballast water standards. But again the point is, where 
is the research that says what the standard should be? Where is 
the research that is trying to define the basic standards or 
the basic processes that should be used in determining the 
standards? Is it going to be ballast water exchange? If that 
doesn't do it, what about the sediments? How do you deal with 
that? I haven't seen any answers on that yet. At the same time, 
I have introduced a bill on that for a number of years, just to 
do the research. And I fault the Congress as much as I do 
anyone in the Administration on this. It still is not in law, 
there is still not good research being done by university level 
researchers telling us exactly what the pathways are, how 
things get in here, what we have to do to achieve, to really 
stop them in every way possible.
    So I don't want to vent on you, Ben, because you have been 
a hero in a lot of this. But it is extremely frustrating that 
these problems have been there for years now. I have been in 
the Congress 13 years, and they were here before I started. And 
we are still spinning our wheels on something as simple as 
ballast water standards, preventing the little critters from 
getting in, or the big critters. I am especially disturbed at 
the length of time it is taking to get that electronic barrier 
in. If Asian carp ever gets in, there is going to be 
recriminations on every newspaper in the Great Lakes States, 
condemning the Government in round terms for not having 
installed that and stopped them.
    Enough sermons. But I would appreciate any comments and 
advice you have to offer.
    Mr. Grumbles. Congressman, thank you. I think the key is 
prevention and technology and also awareness of the economic as 
well as the ecological damage that is occurring. I fully agree 
with you, it is not just a threat, it is a current problem. But 
it can get worse if we don't all work together to be more 
proactive.
    In terms of the economics, EPA is working with other 
agencies on developing and using bioeconomic tools to really 
get a better number. We think it is important to do that, to 
help increase awareness, and that will help lead to more 
action.
    In terms of technology, I think it is important to continue 
to push more and more for more information to pursue more 
science to develop those technologies. EPA's environmental 
technology verification program is an important component of 
that. We have entered into a memorandum of agreement with the 
Coast Guard. We expect that there will be protocols 
specifically for environmental technology verification testing 
being validated. What we are looking at is a final draft of the 
protocols being validated by Coast Guard and Navy, at Navy's 
testing facilities, which has been recently enhanced to support 
ballast water technology testing and verification.
    So I fully appreciate the spirit and also the substance of 
your comments about moving ahead more quickly and accelerating 
the pace on ballast water, not just addressing exchange issues, 
but also getting at treatment and identifying real and 
practical and effective technologies to treat the spread of 
invasives and to stop it.
    Mr. Ehlers. Are you doing the research that guides the 
Coast Guard?
    Mr. Grumbles. EPA is doing some of the research. I think it 
is truly, as the Interagency Invasive Species Task Force and 
Council would tell you, it is a multi-agency effort. I can tell 
you that our research office within EPA, which you are very 
familiar with, is aware of the need for continued work on the 
technologies and research and the tools for combating invasive 
species.
    Mr. Ehlers. I know they are aware of the need, but are they 
doing the research, are they identifying pathways?
    Mr. Grumbles. Yes. My understanding is that there is 
research being done. We also, in coordination with other 
organizations and consortia, are carrying out research. There 
is also an awareness of the need for more research and 
technology deployment.
    Mr. Ehlers. Let me just also add in the tiny bit of time I 
have left, this is an international problem. I was very 
disappointed with the last international conference where we 
tried to strengthen the standard in the international 
agreements. The other countries showed very little sympathy for 
our efforts and very little understanding of the problem we 
face here, probably because they have so many different 
invasive species in all their harbors, they have given up hope.
    But I think if we can't get international agreement on 
this, we just have to go ahead and do our own thing. We cannot 
afford to let more invasive species in. It is an incredible 
expense for our Country.
    With that, Mr. Chairman, I will yield back.
    Mr. Costello. Thank you.
    At this time I will recognize Mr. Salazar for five minutes 
for questions of Mr. Grumbles.
    Mr. Salazar. I do appreciate this.
    Mr. Grumbles, I think you have listed six invasive species, 
which are fish, plants, mollusks, invertebrates, insects, algae 
and microorganisms. Which one would you say is the biggest 
threat, not only to the Great Lakes, but to other waterways in 
this Country?
    Mr. Grumbles. Congressman, from a policy perspective, from 
a scientific perspective, I would be very constrained to 
identify any one single one as the biggest threat. The 
inattention to the overall need is the biggest threat, because 
in many ways, invasives are a silent threat, because you don't 
know, like drought, you don't really know it until you are upon 
it.
    But I think one of the important efforts at the Federal 
interagency level is linking the terrestrial invasive species 
group with the aquatic invasive species group, recognizing that 
there is a strong linkage there. Also just from the aquatic 
perspective, we are very much aware, our Great Lakes National 
Program Office at EPA is very much aware of the many different 
types of threats that the mussels, it is not just the Asian 
carp or those celebrated invasives. There are others that can 
pose a greater ecological threat.
    And this is a great subject, not just for the Great Lakes, 
but for the whole Country, whether it is in bays and watersheds 
in the east or west coast or in the middle section. But 
particularly in coastal regions, it is one of the greatest 
challenges, as well as viruses. It doesn't have to be fish or 
shellfish. There are also viruses that are invasive species.
    Mr. Salazar. And the reason I asked you this is because 
yesterday, I had the Army Corps in my office and we were 
talking about two big invaders that have been introduced in 
Colorado, within the Colorado River and the Arkansas River. One 
of them is the salt cedar, or the tamarisk, which not only is 
big and uses a lot of water along our waterways, but also 
contaminates the soil, because it actually leaves an area of 
very salty soil where nothing grows after you remove them.
    Now, the Army Corps is in charge of removing some of those 
species along portions of the Colorado River. You mentioned a 
little bit ago about the plan the President put forward to 
coordinate all the agencies together. How effective do you 
think that is and who is going to be taking the lead in 
addressing these issues?
    Mr. Grumbles. Of course, I was referring to the Great Lakes 
Interagency Task Force. On that, pursuant to President Bush's 
executive order, EPA chairs that task force with respect to the 
Great Lakes ecosystem. There are other executive orders that 
have been issued relating to other challenges, the invasive 
task force that is not limited to the Great Lakes, Executive 
Order 13112, the National Invasive Species Council, which I 
believe Department of Interior is the primary agency on.
    But for us, specifically in the Great Lakes, invasive 
species, there is a need for a strong Federal role. We feel 
that in addition to EPA, Interior and Agriculture and Coast 
Guard and Army Corps and Commerce are extremely important 
agencies, using existing tools they have, which often rely on, 
it can be chemical, physical barriers, but also taking steps 
working with our colleagues to ensure a healthy habitat. 
Because oftentimes when habitats are unhealthy, they are most 
vulnerable to invasive species.
    Mr. Salazar. Thank you. Thank you, Mr. Grumbles, thank you, 
Mr. Chairman. I yield back.
    Mr. Costello. Thank you, Mr. Salazar.
    The Chair recognizes the Ranking Member of the 
Subcommittee, Mr. Baker.
    Mr. Baker. Thank you, Mr. Chairman.
    I want to try to get a better assessment, Mr. Secretary, of 
our procedural circumstance. As I understand the district court 
case, Northwest v. EPA is now on appeal, pending a 
determination of whether the incidental discharge question can 
be reinstated or not. Concurrent with that, I understand there 
are existing MOUs between EPA and Coast Guard relative to 
establishing a workout plan for deployment of new technologies 
and other perhaps innovative control mechanisms.
    Assuming the best circumstance and outcome, from today 
looking forward, what kind of time frame is it going to take to 
get some substantive deployment in place? Will it require 
perhaps a final legal determination of the pending court 
matter? Will the MOU be the operative lever from which the 
Coast Guard takes the next step? Help us understand, if we are 
just taking a snapshot today, what are we going to look like 
two years from now?
    I read with disturbing interest that the estimate is a new 
invasive species every eight months. How many more are we going 
to have before we get an answer?
    Mr. Grumbles. Thank you, Congressman. Those are really some 
of the key issues that need to be discussed, in Congress as 
well as in the agency hearing rooms.
    You mentioned the court case. I know folks are very 
familiar with this. This was the decision in September, 2006, 
where a district court in California issued an order vacating a 
longstanding regulatory exclusion from permitting under the 
Clean Water Act for discharges incidental to the normal 
operation of a vessel, including ballast water exchanges.
    Mr. Baker. That doesn't include, for example, a bilge pump 
on a 16 foot ski boat?
    Mr. Grumbles. I believe so. I think our estimates and those 
of others, if left undisturbed, that decision could lead to a 
Clean Water Act permit for 13 million recreational vessels, 
81,000 commercial fishing vessels, 53,000 freight and tank 
barges.
    The important point is that because we respectfully 
disagree with that decision, we are appealing that decision. An 
even more important point, though, Congressman, is that we 
recognize that important actions need to occur to continue to 
combat the spread of invasive species. You mentioned the Coast 
Guard. From our perspective, a key way to proceed with other 
agencies is to provide support to the Coast Guard to use their 
existing authorities for their ballast water discharge standard 
regulation that they are going to be working on, but also to 
provide technical support to you and your colleagues in 
Congress to move forward with a stronger and reauthorized 
national invasive species act legislation that addresses this 
issue of----
    Mr. Baker. You may not be comfortable in addressing this, 
since it is a question of another agency's authority, but do 
you believe, from your perspective, the Coast Guard has the 
regulatory platform from which to make judgments and regulate 
this problem?
    Mr. Grumbles. From my perspective, I believe that the 
framework of the NANPCA 1990 legislation and the 1996 
amendments from NAISA, that provides the regulatory framework 
and the primary lead agency, the Coast Guard. An important 
addition to that, though, is to clarify from a Congressional 
standpoint the role of the Clean Water Act in the EPA 
permitting process. We continue to believe that the Coast Guard 
has the overall tools, but that it would be beneficial for 
Congress to strengthen the NAISA and to provided for a uniform 
standard for treatment.
    Mr. Baker. Since my time is about to expire, let me 
interrupt one more time. It would be your view, then, that the 
Coast Guard has the ability and authority to move forward, 
absent any appellate decision on the EPA litigation, they could 
in your view take whatever steps they believe to be adequate to 
begin addressing this problem, notwithstanding the legal status 
of the EPA at this time?
    Mr. Grumbles. Well, I think they do have the authorities to 
continue to move forward under their existing tools. We think 
it is important for Congress to strengthen their tools, to 
provide a uniform standard for treatment. An important point is 
that right now in EPA, there is an order by the judge for us to 
vacate our exemption before October 1st, 2008, September 30th, 
2008.
    Mr. Baker. Which is a whole new set of problems. That 
complicates our circumstance, but it doesn't address the 
invasive species issue.
    Mr. Grumbles. Right.
    Mr. Baker. I thank you.
    Ms. Johnson. [Presiding] Mr. Kagen.
    Mr. Kagen. Thank you, Madam Chairwoman, and thank you, Mr. 
Grumbles, for coming here today and educating us. Thank you 
also to other members of the EPA for bestowing on me a national 
award for studying the environment and making it more friendly 
for children and patients I took care of for many years.
    Through your testimony you did mention that there is a 
collaborative research program that has been supported by NOAA, 
the Coast Guard and the EPA. I am wondering if you could share 
with us some of the results of the Great Lakes Environmental 
Research Lab and also the Smithsonian Environmental Research 
Group. Do you have those results available to share with us, 
particularly as it relates to the ballast and the introduction 
of invasive species into the Great Lakes?
    Mr. Grumbles. I thank you for your excellent question. I 
don't have the specifics or the details. I would be happy to 
provide those to you and your colleagues on the Committee. It 
is important, though, to re-emphasize the need for working 
together through both the Smithsonian Institution, all the work 
that NOAA is doing and other research agencies on this threat.
    Mr. Kagen. Thank you very much. I would appreciate the 
data, since my background is in science and I like data. It is 
less political when you have numbers.
    [Laughter.]
    Mr. Kagen. I don't mind working with anybody if it means we 
can help to reduce not just the number but the introduction of 
additional invasive species.
    But since I am also new here and I am beginning to sort of 
feel my way around, are you willing to take full and complete 
blame for any other additional invasive species that come into 
the Great Lakes? And if it isn't you or your organization, who 
do we look to to address the issue?
    Because I think the real question is not to prevent the 
Asian carp from coming in, they are going to get in, and then 
what do we do when they get here? Who do we look to to blame?
    [Laughter.]
    Mr. Grumbles. I think agencies at the Federal level, State 
and local level should be held accountable for decisions and 
being proactive. I think--it is hard to----
    Mr. Kagen. It is hard to put a rope around the neck of an 
agency. It is a lot easier to get someone who is front of us at 
a microphone.
    [Laughter.]
    Mr. Grumbles. I certainly will accept part of the blame, or 
for the success. I think we appropriately focus on oftentimes 
the glass that is half empty. We also need to keep in sight 
that there is progress, there are some important collaborations 
and actions that are occurring, there is a commitment to do 
more, on the issue that Congressman Ehlers raised, on the 
Chicago Sanitary and Ship Canal, working to iron out those 
issues surrounding the Asian carp barrier.
    There are good things, there are actions that are 
occurring, not just in the Federal agencies. But Congressman, 
we need to be focused on prevention and being held accountable, 
and that includes me, to take steps to help, practical, 
aggressive steps to reduce the likelihood of continued 
increases of the spread of invasive species.
    Mr. Kagen. The other thing I am impressed with here in 
Congress is the good will of everyone, because everyone in the 
room and everywhere beyond has great intentions. It is rather 
the speed at which these intentions are executed and the 
programs funded and the research done. I will just remind you 
of our stewardship that we all share, the stewardship of the 
Great Lakes, which represents 90 percent of the fresh water in 
the United States, and 20 percent for the entire planet. So 
this is a tremendously important role that Congress plays and 
the EPA as well.
    Would you agree with me that the primary reason we have 
seen such a rapid rise in the number of invasive species 
throughout the Great Lakes has to do with global trade and the 
introduction of these species through the shipping process?
    Mr. Grumbles. I think that is the reality. That is 
definitely one of the major factors, the maritime trade.
    Mr. Kagen. The zebra mussel that I step in in the Fox River 
in Appleton, Wisconsin, doesn't come in by air. It was 
delivered by some boat and the ballast water. So you would 
agree with me that that is the route of travel and that ought 
to be then the top priority of your organization and of 
Congress, is that right?
    Mr. Grumbles. I think, and as I have talked with the head 
of the Maritime Administration, and as we have worked, 
collaborated with the Coast Guard, Maritime Transportation, 
global transportation, ought to be one of the priority, not the 
sole, but one of the priority areas of focus.
    Mr. Kagen. I look forward to working with you throughout my 
career in Congress.
    Mr. Grumbles. Thank you.
    Ms. Johnson. Mrs. Miller.
    Mrs. Miller. Thank you, Madam Chairman. I want to commend 
you for holding this hearing today.
    I have been involved in politics for about 30 years, and a 
principal advocacy of mine throughout all of that has been 
protecting our magnificent Great Lakes, which as my colleague 
pointed out, is fully 20 percent, one-fifth of the fresh water 
supply on the entire planet. In fact, Mr. DeBeaussaert and I 
have worked together on the blue ribbon commission for Great 
Lakes projects many more years than we probably want to talk 
about.
    But this issue of invasive species, let me be very blunt. 
When I came here, I thought, what is the big deal? Why can't we 
do something in Congress or the agencies about invasive 
species? It is well documented the kind of havoc that they are 
wreaking economically on the Great Lakes Basin, as well as the 
damage that they are doing to such a delicate ecosystem. As a 
Nation, we have not had the political will to do so. That is 
the brutal reality.
    In regard to the shipping that comes in and brings all 
these critters along with them, we are only talking about a 
couple of hundred, maybe several hundred at the most, boats. 
Because the ones that are inside the basin, never go out, so 
who cares? Right? They are not bringing any critters in. But 
the other ones that are coming internationally do, as they are 
coming into the St. Lawrence Seaway. If the Country of France 
came over and dumped their nuclear waste in Wyoming, would the 
EPA think that maybe we should do something about that?
    But yet here you have these international vessels coming 
into the Great Lakes, dumping these critters all over the 
place, and you can't do anything? Honestly. Why not?
    Mr. Grumbles. We think we can, and we think that we use our 
statutory tools and responsibilities and look to the agencies 
and the statutes that are best, most appropriately suited to be 
proactive and to deal aggressively with that. I recognize your 
leadership on this issue. I feel honored to sit on the table 
with folks who have been so much, particularly Ken, who helped 
chair the regional collaboration on invasives, the strategy 
team on that.
    Congresswoman, as you know, it involves different 
authorities and agencies. EPA is committed to working with 
Coast Guard, working with Congress to help strengthen that 
underlying statutory framework and approach. We think the Clean 
Water Act is one of the most successful environmental statutes 
in the Nation's history. One of the questions is, how do you 
use the tools under that statute in the most appropriate way. 
From our perspective, over the last 30 years, we interpreted 
the statute with Congressional acquiescence, essentially, that 
it wasn't viewed that EPA, as opposed to Coast Guard under 
other authorities, would be requiring Clean Water Act permits 
under the Federal Clean Water Act for vessels.
    Mrs. Miller. OK, I am going to run out of time here, so if 
I could interrupt you. That is not the correct answer, although 
I appreciate your answer.
    Could you give me, at a later time here, a briefing on why 
you think the EPA does not have the proper tools, from a 
regulatory process, regulating policy to do something about 
that? And my other question, for the minute and a half I have 
left here, because we can't get the EPA to do anything or 
because the Congress is not acting fast enough, Ken 
DeBeaussaert and others, our Governor, our State legislature, 
has actually tasked our own piece of legislation in Michigan, 
so that if you are an ocean freighter and you come in, we make 
sure that you have done your spit and swish, and that you have 
done your ballast water discharge, to our own negative economic 
impact. Because we are a State that is trying to stand up and 
do the right thing, they are just going to go to Ohio or 
somewhere else. We are very concerned that we are going to be 
economically disadvantaged because we are trying to do the 
right thing.
    I have introduced a piece of legislation to make that 
uniform amongst the Basin, and I hope that happens. But did you 
have any comments on what Michigan did in that case?
    Mr. Grumbles. First of all, I want to just say that 
absolutely, positively, EPA wants to be part of the solution. 
We are taking steps and we are working with other Federal 
agencies and coordinating with Coast Guard. We also developed a 
rapid response protocol. We are one agency, and it requires a 
team to deal with this. We do truly recognize this as a threat, 
and we want to use the appropriate tools and work with Congress 
to strengthen the NAISA statute.
    With respect to the efforts of Michigan, I think is 
important that States have the ability to take additional steps 
and develop approaches that are within the overall constitution 
and framework. We think the beauty and attractiveness of the 
Great Lakes Regional Collaboration that the President has been 
encouraging over the years is that it brings together the 
Federal agencies, but also the States and tribes and local 
governments. Individual States may have approaches, whether it 
is a NOBOB challenge, which we agree is an extremely important 
and serious challenge that needs to be confronted with action.
    Btu we are committed to working with all of the States and 
with the other agencies to make progress with respect to 
ballast water and also on the NOBOB challenge.
    Mrs. Miller. Thank you, Madam Chairman.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mr. Oberstar.
    Mr. Oberstar. Thank you, Madam Chair. I thank our panel of 
witnesses. I understand that Mr. Grumbles does have another 
commitment and has to leave earlier. Ms. Johnson and I have 
both been on the House Floor on a major piece of legislation 
from our Committee to provide funding to build sewage treatment 
facilities.
    I have read your statement with interest, Mr. Grumbles, and 
I have one question. Is there a technology that EPA has 
identified that can be effective in eliminating from ballast 
water non-indigenous species of the kind that we are concerned 
about here, these invasive species? There may be other ways in 
which they enter, as attached to the exterior hulls in the 
salties that enter the Great Lakes. But I am considering just 
the Great Lakes at the moment. But there is ballast water 
discharge on the west coast and the east coast, and the Gulf 
coast. In fact, all of those coastal port authorities are 
concerned about it coming from the East China Sea, from the 
eastern, or we would call it the western Pacific Rim.
    We have had studies for year about invasive species. We 
know what they do. What we need to do is get them out of the 
water column and eradicate them before they get into the water 
column. Is there something in EPA, a technology, a treatment, 
that EPA said, this will do it?
    Mr. Grumbles. First of all, Congressman, Mr. Chairman, I 
would say I want to get back to you for the record with much 
more specifics. In terms of the answer, I think we believe 
there is not a silver bullet technology. There are promising 
technologies. There are technologies that are more effective 
and implementable than others.
    I would also say that EPA is one agency with others, such 
as NOAA and USDA, that are very much involved with the Coast 
Guard on developing the standards and providing support to the 
Coast Guard as they develop a ballast water treatment standard, 
which will rely on performance based approach.
    Mr. Chairman, I would say that I look forward to providing 
you with more detail, and before doing that, coordinating with 
the other agencies on what are the most promising technologies 
to get the invasives out of the water column.
    Mr. Oberstar. I appreciate that very much. I think Mrs. 
Miller, with whom I have had extensive discussion on the 
subject matter, would appreciate it, and Mr. Ehlers from 
Michigan, our resident scientist on the Committee. We are at an 
end of patience with studies. There is a good deal more that 
needs to be evaluated, studied, researched and so on, but there 
are things that we need to do now to prevent the next lamprey 
eel, spiny echinoderm, zebra mussel, round eyed goby, European 
milfoil, all those that have entered in ballast water into the 
Great Lakes and destroyed the water column and the native 
species.
    We may never be able to get the zebra mussel out. We don't 
want to import the diving duck from the Black Sea that is its 
natural enemy, because then who knows how quickly that creature 
will proliferate, with no natural enemies for it? We need both 
control mechanisms for those that are already in the water 
column in the Great Lakes, in the saltwater parts and a means 
of preventing it from getting in, species from getting into our 
water column, treating the ballast water for starters.
    So I would welcome your follow-up and any indication other 
agencies are actively working with EPA in this process.
    Mr. Grumbles. Yes, sir.
    Mr. Oberstar. I yield back the balance of my time.
    Ms. Johnson. Thank you, Mr. Chairman.
    Any other questions for Mr. Grumbles?
    Hearing none, thank you very much.
    Mr. Grumbles. Thank you very much.
    Ms. Johnson. We will see you next time.
    I would like to welcome now Chairman--Ettawageshik?
    Mr. Ettawageshik. Ettawageshik.
    Ms. Johnson. I just speak Texas English, that's why I don't 
do it well.
    [Laughter.]
    Ms. Johnson. From the Traverse Bay Band of Odawa Indians. 
Thank you for being here.
    I also welcome the Honorable Gary Becker, Mayor of the City 
of Racine, Wisconsin. We look forward to your testimony as 
well. And Mr. DeBeaussaert.
    Mr. Oberstar. DeBeaussaert. [Phrase and greeting in 
French.]
    Ms. Johnson. Our Chairman is multilingual, and I appreciate 
it, because I am not.
    We will now recognize you, Mr. Chairman.

TESTIMONY OF THE HONORABLE FRANK ETTAWAGESHIK, TRIBAL CHAIRMAN, 
LITTLE TRAVERSE BAY BANDS OF ODAWA INDIANS; THE HONORABLE GARY 
  BECKER, MAYOR, CITY OF RACINE, WISCONSIN; KEN DEBEAUSSAERT, 
          DIRECTOR, MICHIGAN OFFICE OF THE GREAT LAKES

    Mr. Ettawageshik. Madam Chair and members of the Committee, 
my name is Frank Ettawageshik, Tribal Chairman for the 
Waganakising Odawak, otherwise known as the Little Traverse Bay 
Bands of Odawa Indians in Michigan.
    As Chairman, I also serve as the tribal representative to 
the Chippewa Odawa Resource Authority, otherwise known as CORA. 
That is a coalition of five Michigan tribes that oversees the 
management and regulation of treaty-based fishing rights in the 
upper Great Lakes. CORA also oversees implementation of a 
consent decree entered in the year 2000, a negotiated 
settlement of a longstanding Federal court case among the five 
tribes, State of Michigan and the Federal Government. The 
consent decree governs the allocation and management of the 
fishery resources and the 1836 treaty-ceded waters of the upper 
Great Lakes.
    With the approval of the CORA board, I speak on their 
behalf today with respect to the issue of aquatic invasive 
species, an issue we consider of great importance for our 
fishing rights as well as the continued successful 
implementation of the consent decree.
    Our ancestors, who signed the 1836 Treaty of Washington 
with the United States Government, had the wisdom to ensure 
that future generations could continue utilizing the fish 
resources of the Great Lakes for sustenance and income, and 
many tribal families continue to depend on fishing today. While 
we were preparing our written testimony, we consulted with the 
Great Lakes Indian Fish and Wildlife Commission and also the 
Haudenosaunee Environmental Task Force, with the staff of these 
organizations. Together with CORA, we represent many of the 
tribes throughout the Great Lakes, from one end to the other of 
the Great Lakes Basin.
    As tribal nations, we often speak, and we are being taught 
to consider the impact of our decision on through to the coming 
seventh generation. While this teaching causes us to take the 
long view in our planning, there are times within this long 
view that we find ourselves needing immediate action in order 
to protect the needs of those coming generations, in order to 
meet our sacred duty and working to protect all of creation and 
the beings with whom we share it. Today is one of those times 
we call for immediate action.
    Commercial fishing is one of the oldest industries in the 
Great Lakes, if not the Nation. Historically, the Great Lakes 
supported a vast, vibrant, profitable commercial fishing 
industry. Sadly, today, commercial fishing on the Great Lakes, 
particularly tribal fishing, is on the verge of collapse. Under 
the various environmental and market forces, the direct and 
indirect impacts of aquatic invasive species stand out as the 
leading cause for the precipitous decline in treaty-based 
commercial and subsistence fishing activity.
    Our primary concern is the continued, steady and 
destructive invasion of aquatic invasive species into the Great 
Lakes, with their primary vector for entry being ballast water 
discharge from transoceanic shipping. To state it bluntly, the 
transoceanic shipping industry, through ballast water exchange 
practices and construction of canals, has severely impaired and 
threatens to destroy the treaty-based commercial and 
subsistence fishing industry.
    The tribes understand that foreign shipping into the Great 
Lakes provides economic benefits to the United States. However, 
we submit to you that any economic benefits derived from Great 
Lakes foreign shipping, that those benefits pale in comparison 
to the economic costs resulting from damages caused by aquatic 
invasive species. We have heard many people talk about that 
today, both in the questions and various statements.
    One of the things that we are concerned about is with these 
various species that have been there, but the recent discovery 
of a serious new fish virus in Lakes Ontario, Erie and Huron, 
which is believed responsible for large fish dieoffs in the 
spring of 2005, has greatly raised the level of concern. 
Although it has not yet been determined how viral hemorrhagic 
septicemia, VHS, found its way into the Great Lakes, ballast 
water discharge is implicated. This is just another example of 
the costs associated with this.
    Unfortunately, history has proven that once an aquatic 
invasive species is introduced to the Great Lakes, it can't be 
stopped. Therefore, prevention is the only viable approach to 
combating aquatic invasive species. The means by which aquatic 
invasive species enter the Great Lakes must be stopped, and the 
ballast water vector should be the first priority. We have 
heard other people speak to that today.
    It is really saddening to realize that most of the costs 
and environmental damages wrought by AIS could have been 
prevented. And all costs for those that are being introduced 
today, all of those costs could have been prevented. So while 
the solutions may be expensive, we believe that they pale in 
comparison to the true economic costs. So not only is this a 
Great Lakes issue, but these species that come in and end up 
working their way throughout other ecosystems throughout the 
area, we have heard recently some reports of the zebra mussels 
moving their way into other waterways. We think that this is a 
very serious concern.
    On any given day, any given ballast water discharge from a 
transoceanic vessel can carry an organism that could inflict as 
much or even more economic and environmental damage as the sea 
lamprey or zebra mussels or the pathogen VHS. We believe that 
immediate action is necessary. We support the actions that are 
being done, we support the actions of those on the Committee 
that have been taken, and others. And I would be glad to answer 
any questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I now recognize the Mayor of Racine, Wisconsin.
    Mr. Becker. Thank you, Madam Chairman. Good afternoon, 
members of the Subcommittee.
    I also serve as vice chair of the Great Lakes St. Lawrence 
Cities Initiative, a coalition of mayors of some 39 member 
cities and an additional 50 participating cities. Great Lakes 
mayors are extremely fortunate to be managing cities and towns 
located along a resource as incredible as the Great Lakes 
Basin. At the same time, however, Great Lakes mayors must deal 
with the problems of the Great Lakes on a daily basis, whether 
it is making sure that the water intakes are clear from zebra 
mussels, dealing with beach closings, unreliable water quality 
standards, operating wastewater treatment plans, or managing 
stormwater, the people that work for me, like mayors across the 
Basin, must make sure things are done right. These are very 
real issues for me and my fellow mayors and the people who live 
in our cities.
    Invasive species are a key issue for Great Lakes mayors, 
causing extensive biological damage and resulting in billions 
of dollars of costs across the Country and in the Basin. Over 
180 different species have come into the Great Lakes already 
and they continue to arrive at the rate, as has been mentioned, 
about one every six or seven months. Some of the most notable, 
of course, have been the sea lamprey and zebra mussel.
    Ballast water in ships is the most common pathway for entry 
into the system. Additionally, they are very close to entering 
the Great Lakes, there are several varieties of the Asian carp 
already in the Chicago Sanitary and Ship Canal, less than 50 
miles from the Great Lakes.
    Cities have dealt with the zebra mussel problem for many 
years, with the clogging of drinking water intake structures 
being the primary concern. In my own City of Racine, we have 
spent nearly $1.4 million in 1995 for a new chemical feed 
system, chemical lines and diffusers to address the situation. 
In addition, it has increased our annual operating costs at the 
water utility between $30,000 and $40,000 per year, and we are 
one medium-sized city along the Lakes.
    The tragedy of the situation is that much of the invasive 
species problem could have been prevented. If action is not 
taken quickly, though, things will get worse, as we all know. 
Man of the issues we deal with on the Great Lakes are the 
results of mistakes we made in the past. And now we are paying 
the price. Rarely do we have the opportunity to prevent future 
damage by taking action now. This is one situation where we 
have that opportunity, and it would be a mistake not to take 
full advantage of it.
    Comprehensive invasive species legislation on a national 
level is essential if we want to deal with the problem 
effectively. This legislation does not need to cost taxpayers a 
large amount of money. In fact, the lack of strong laws is 
costing taxpayers much more already. The Federal Government 
needs a strong program to restrict ballast water discharges and 
control other pathways for invasive species. Costs incurred in 
controlling the flow of invasive species should be absorbed by 
the responsible businesses and consumers of the products they 
produce and transport.
    An additional problem with not having comprehensive Federal 
laws is that States, as Michigan was mentioned, and local 
governments are finding it necessary to move ahead on their 
own. Having a program in one of the Great Lakes States and 
potentially different programs in others will cause problems 
for States and for the shipping industry.
    One other action by Congress needed in the very near term 
is authorization and appropriation to complete construction and 
fund the operation of the electronic barrier on the Chicago 
Sanitary and Ship Canal. Mayors and many others in the Great 
Lakes region such as Governors, business groups, environmental 
organizations and members of Congress wish this could have been 
done several years ago. Each day it is not completed 
perpetuates the unnecessary risk to the multi-billion sport and 
commercial fishing industry on the Great Lakes.
    Although the focus of today's hearing is on invasive 
species, it is important to recognize that there are many other 
serious threats to the Lakes. Discharges of untreated or 
inadequately treated sewage from combined sanitary sewer 
overflows are a major problem across the Basin. The 
infrastructure investments needed are in the billions of 
dollars, and only with significantly increased investments by 
Federal, State and local governments will the problems be 
solved.
    Other key issues highlighted in the collaboration strategy, 
which the Great Lakes perceives as a blueprint for moving 
forward, were the toxics, habitat and wetlands protection and 
contaminated sediments. These are the priority issues from the 
perspective of Great Lakes mayors.
    Thank you for holding this hearing and for the opportunity 
to provide testimony. Hopefully, we will not have our legacy as 
today's leaders to have future generations look back and ask, 
why did they not act when they knew it needed to be done? Thank 
you.
    Ms. Oberstar. [Presiding] Thank you very much, Mayor 
Becker. We really appreciate your contribution today.
    Mr. DeBeaussaert.
    Mr. DeBeaussaert. Thank you, Mr. Chairman, members of the 
Committee. My name is Ken DeBeaussaert, I am the Director of 
the Michigan Office of the Great Lakes. I am honored to speak 
today on behalf of the Great Lakes States and the State of 
Michigan's Executive leadership, our Governor, Jennifer 
Granholm, and Lieutenant Governor, John Cherry, who is 
currently the chair of the Great Lakes Commission.
    First to thank you, Mr. Chairman and members of this 
Committee, for the leadership that you have already 
demonstrated this session in advancing some important 
legislation and that I know you have acted on yet this 
afternoon. I want also to thank you for holding this important 
discussion about the impacts of aquatic invasive species on the 
Great Lakes.
    Before I begin my remarks, I would also like the personal 
privilege of acknowledging the great efforts that our members 
from the Michigan delegation, Mrs. Miller and Congressman 
Ehlers, historically, on so many of these issues.
    In the Great Lakes region we take seriously our stewardship 
responsibility, and for good reason. The Great Lakes constitute 
the largest surface freshwater system in the world. More than 
35 million Americans receive the benefits of drinking water, 
food, a place to live, work and recreate and transportation 
from these Great Lakes. And our national economy depends on the 
Great Lakes. Great Lakes States account for 30 percent of the 
total U.S. gross domestic product, and the Great Lakes are a 
key national transportation network. Fishing, boating, hunting 
and wildlife watching generate some $53 billion annually in 
revenue in the Great Lakes Region, with boating alone 
supporting over 250,000 jobs.
    We are especially appreciative of this Committee calling 
attention to the problem of invasive species in the Great 
Lakes, because curbing their introductions is really a priority 
once again in 2007. Unfortunately, as we have heard, the list 
of invasive species and the problems associated with them 
continues to grow. As of 2006 more than 188 species were 
established in the Great Lakes.
    And they are not just impacting the health of our fishery. 
They are also impcating our economy. The cost of invasive 
species is estimated as high as $5.7 billion annually, and the 
cost of just one invader, the zebra mussel, estimated to cost 
city's power generators and others millions of dollars 
annually.
    The impact of invasive species on the ecological health of 
the Great Lakes is equally alarming. We know that Lake Erie has 
developed a 3,900 square mile dead zone in the summer months 
and we know that in Lakes Michigan and Huron we have seen a 
dramatic decline in the health of fish stock that is believed 
to be linked to the change in the food web that you will hear 
later, in a later panel this afternoon.
    Perhaps most alarming, though, is what we don't know. Our 
understanding of the extent of the damage continues to evolve 
as more species are introduced, as viruses are identified, like 
the VHS. And of course, we shudder to think of the potential 
devastation that the Asian carp could bring to our Great Lakes.
    Unfortunately, we believe Federal action to halt 
introduction of invasive species via ballast water has been too 
slow. Frustration over that inaction led five Great Lakes 
States to join a lawsuit to try to force action by the EPA. And 
in 2005, as has been mentioned, with broad bipartisan and 
business support in Michigan, we adopted legislation requiring 
ocean-going vessels that visit Michigan ports to obtain a 
permit beginning in 2007. We currently have 12 vessels that are 
in the process or have obtained a permit under that law.
    Individual State permitting, though, is far from being a 
perfect solution to this complex problem. But in Michigan, we 
are resolute in our determination that we cannot just sit by 
and watch the Great Lakes teeter on what some scientist 
describe as the tipping point of ecological meltdown. In fact, 
in addition to Michigan's law, ballast water legislation was 
introduced in several Great Lakes States. If Congress does fail 
to act, I think it is likely that those measures will continue 
to advance.
    But the Great Lakes States continue to believe that the 
best solution is a Federal ballast water program, one that is 
uniform and consistent and protective of the Great Lakes. So 
Chairman Oberstar, we applaud and appreciate your recent 
statements, expressing your commitment to tackle this challenge 
in 2007. I recommend that while solutions to these problems are 
not simple, that you consider that a good deal of the work from 
our perspective may already have been outlined in the Great 
Lakes Regional Collaboration Strategy. One action alone, 
passage of a national aquatic invasive species act, similar to 
the one introduced by Congressman Ehlers and a similar bill in 
the Senate last session would be a monumental step forward. I 
would note that there was broad consensus in that process about 
the ballast water provisions of that legislation, and worth 
noting that consensus support included representatives of the 
region's maritime industry.
    And finally, whether through a comprehensive NAISA bill or 
WRDA bill or through freestanding legislation, we would hope 
that this Congress would be able to act quickly to authorize 
and fund the Corps of Engineers' work to complete construction, 
operate and maintain the electrical barriers designed to 
prevent the Asian carp from invading the Great Lakes via the 
Chicago Sanitary and Ship Canal.
    Mr. Chairman, the Great Lakes States pledge to you that we 
will continue to work together to develop solutions for 
stopping the spread of invasive species and we must work 
together to protect and restore this ecological treasure that 
we call the Great Lakes. That will be our legacy for future 
generations. We thank you again for your interest in this issue 
today.
    Mr. Oberstar. Thank you very much for your testimony. 
Thanks to all three members. Chairman Ettawageshik, megwich.
    Mr. Baker, do you have any questions?
    Mr. Baker. Thank you, Mr. Chairman.
    Mr. Mayor, the Secretary earlier testified that he felt 
that in the current scheme of operations, notwithstanding 
pending litigation in California on ballast water discharge, 
absent any other action by the EPA, he viewed that the Coast 
Guard had the appropriate regulatory foundation from which they 
could properly act. Do you share that view, or do you see other 
obstacles to some sort of regulatory regime being put into 
effect that would minimize these problems?
    Mr. Becker. I am far from the expert on it, but I agree 
with Mr. Grumbles that the authority in law is there. I think 
one of the other things he did touch on is, does the Coast 
Guard have the capacity, do they have the resource, the number 
of ships, the number of men to go ahead and enforce. I don't 
think on the Great Lakes the answer to that is yes. They are 
stretched from a number of different missions. But also as Mr. 
Grumbles said, probably some clarifying language, passage of 
law by Congress to reinforce and strengthen their authority 
would be helpful.
    Mr. Baker. Let me further clarify, the Coast Guard is 
involved in a process, as I understand it, designated as a NEPA 
process, to come to some conclusion about the most effective 
way to proceed. That has now been ongoing over a period of some 
number of years. If they have the authority to act, they are 
the party which seems to be agreed upon as the responsible 
entity to make some substantive progress, what do we need to do 
to draw this regulatory public comment period to some sort of 
conclusion and get a public policy produced? I can certainly 
understand the Chairman's frustration and members who enjoy the 
Lakes. I am on the other end of the tube down here. We have 
similar problems with other issues. But even in Katrina terms, 
this has been going on a long time.
    Mr. Becker. A lot of these issues have. I guess possibly 
through Congress, through Congressional legislation, set a date 
certain where this must be done. I don't know what other answer 
to get some of these agencies to move. I am not here to 
criticize the Coast Guard or EPA. But I have certainly found 
running a city that if there are not date certains that you 
give the bureaucracy to get things done, they have a tendency 
to not get done.
    Mr. Baker. Well, in your public policy position, then you 
believe there has been adequate vetting, public comment and 
review of the matter to adequately reach a conclusion?
    Mr. Becker. Personally, yes, and I would argue that on most 
issues. There has probably been enough discussion and I think 
on invasives or anything else, I think we have the science, we 
know what needs to be done. It is a matter of getting it done, 
whether through legislation or getting the bureaucracy to 
implement.
    Mr. Baker. Well, sometimes controversy breeds caution. I 
was advised by a senior statesman back home one time about 
pursuing a highway project too vigorously. He told me that 
surveys are a lot better for you than the construction. He 
said, if they think you are going to act, that is a good thing. 
Once you start acting, you are in real trouble. So maybe that 
is where we are.
    [Laughter.]
    Mr. Baker. I yield back.
    Mr. Oberstar. Mr. Hall?
    Mr. Hall. Thank you, Mr. Chairman, and thank you all for 
your testimony. I am sorry I was late, I was double booked at a 
Veterans Administration hearing, and I am trying to cover 
everything.
    I am curious, representing a district that spans the Hudson 
River, whether any of the panelists would be able to comment, I 
believe we have our fair share of invasive mussels and other 
aquatic species. In what ways are the strategies in use or that 
are being contemplated for the Great Lakes applicable to an 
estuary like the Hudson? What special challenges do you know of 
that a water body like the Hudson River present in addressing 
invasive species?
    Mr. DeBeaussaert. Well, we have found that a number of the 
invasive species that have spread throughout the United States 
have found their place first in the Great Lakes. The zebra 
mussel is one, for example, that was first identified in Lake 
St. Clair in the mid-1980's and now has spread not only 
throughout the Great Lakes, but we have seen their advancement 
to Lake Mead recently.
    So I think that the notion of preventing the introduction 
of invasives into our Great Lakes will have an implication for 
other bodies of water, and part of the recommendations of NAISA 
goes beyond just the simple matter of preventing the 
introductions, but also preventing the spread of current 
invasive species that are in our waters today. There is a whole 
series of recommendations that would be helpful there.
    As it relates to the electrical carp barrier, as an 
example, that was first designed, as I understand it, to 
prevent some of the exotic species in the Great Lakes from 
getting into the Mississippi, the round goby in particular. 
Unfortunately, that did not occur before that round goby passed 
through. Now we are seeing it as a line of defense to protect 
the Great Lakes from the Asian carp.
    So I think there are ways that these measures that are 
enacted do provide benefit beyond the Great Lakes States.
    Mr. Hall. Are there any, and this is to any of you 
distinguished gentlemen, are there any invasive species hot 
spots in the Great Lakes? Do the species cluster in some areas 
more than others, or do harbors seem to be more susceptible 
than the rest of the lake?
    Mr. Ettawageshik. I believe that because we are in a--it is 
large, but it is a contained system. It really is, we may find 
areas where we first find an invasive species. But the problem 
is that it eventually gets everywhere. So while we actually are 
working on a rapid response to the finding of aquatic invasive 
species and we have a plan through the Great Lakes Regional 
Collaboration and the implementation to devise methods for 
rapid response when we find something that has recently been 
discovered, the problem is that by the time we find it, the 
next problem is already in the lake and we don't know what it 
is yet, it is already there. It is going to cost us millions of 
dollars to deal with. But we don't know what it is yet, because 
we haven't found it yet.
    That is the problem we have right now. The VHS is one that 
has been coming in, the viral hemorrhagic septicemia. This is 
something that is going to have a major effect. The people that 
I am here representing are fishermen. We are commercial 
fisherman as well as subsistence fishing. This is going to have 
a major impact, and we don't know for sure what that impact is 
yet, because we just know that it has spread.
    Are there hot spots? The first time you identify a spot, I 
suppose that is a hot spot. We try to deal with it. But usually 
by the time we have found it, it is other places as well.
    Mr. Hall. Thank you, Chairman. I just want to ask one more 
question. I guess this is sort of a ship management, 
hydromechanical question. Is water ballast necessary while 
navigating the Great Lakes, or is it necessary while out on the 
ocean, and something that could reasonably be expelled before 
entering the St. Lawrence? Maybe this question was answered 
before I got here, so excuse me if it is redundant. But I am 
just trying to understand, is there resistance from the 
shipping industry to clearing their tanks before they enter the 
system, or if so, why?
    Mr. Becker. No, they do expel the ballast before they enter 
into the system, generally. The problem is the amount of sludge 
in the bottom of the ship, you can't expel it all. So when they 
even, they come into the Basin and they reload the ballast 
water, then when they drop their freight, their load somewhere, 
and then they dump the ballast water, it's----
    Mr. Hall. Rinsing it out.
    Mr. Becker. Good analogy, yes. So even though they have 
expelled the ballast water before they entered the basin, they 
pick up more in the sludge in the bottom of the ship. There are 
a lot of organisms down there, too.
    Mr. Hall. Thank you. Thank you, Mr. Chairman
    Mr. Oberstar. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Mr. DeBeaussaert, I am not familiar with the status of the 
Michigan law at the moment. I would be interested if you could 
explain that. But also, I would like to raise a State's rights 
issue, not just with Michigan, but you would know what 
Michigan's attitude would be, and perhaps you can also 
enlighten me on what the other States would be. If we passed a 
Federal law on invasive species, whether it is ballast water or 
anything else, would the States, do you think the States would 
be happy with their own laws being preempted by the Federal 
Government? Or would they gladly accept our efforts?
    Mr. DeBeaussaert. I thank you for the opportunity to expand 
just a bit on the State law first. The law was passed in 2005 
and it required by 2007 that the ocean-going ships obtain a 
permit. A process was developed over a period of time to 
develop a general permit opportunity to try to streamline that 
process. The Department of Environmental Quality identified 
four specific treatment technologies that they approved under 
our State law and also allowed the opportunity for individual 
ships to seek an individual permit if they wanted to use an 
alternative technology.
    There is also, in Michigan's situation, the vast majority 
of ships would not be discharging ballast water in our ports, 
and they would be under permit and would be reporting, but 
would not be required to have that technology in place, so long 
as they weren't discharging. And as I said, as of a couple days 
ago when I left Michigan, I think we had 12 individual ships 
that either had obtained the general permit or were in the 
process of doing so. And we certainly hope and encourage others 
to follow that suit.
    As to the second part of your question, about the reaction 
of States to preemption, I can tell you that last year, there 
was a bill that was introduced in the U.S. Senate, I think it 
was 363, and the Great Lakes Governors united in opposition to 
that letter. One of the reasons for their concern was the 
preemption of the ability of the States to act. There were 
concerns about many other provisions of that law as well.
    Similarly, I think the attorneys general for many of the 
Great Lakes States signed a letter to the Congress, to the 
Senate in particular, outlining their concerns. One of the 
concerns was that preemption. So I think there is a reluctance 
to, at the outset, to say that the States would be willing to 
accept that preemption. It is something that has been 
identified both by the Governors and the attorneys general as a 
major concern. I guess part of the major question would be what 
the whole overall package was, what the program was. Clearly, 
the bill that was introduced last year did not meet that test.
    Mr. Ehlers. Was it because they didn't feel the law was 
strong enough? And if we did write a strong law that was 
stronger than all the State laws, do you think the States would 
still be concerned?
    Mr. DeBeaussaert. I think there will always be concern 
about the ability of the States to not be able to act under 
their authorities. But clearly in that case, there were 
specific concerns about the provisions of that bill that the 
States did not feel were adequate. I am not in a position to 
speak for all of the Governors in terms of how they might react 
to other legislation that might be introduced. But I know it 
would be a concern at the outset.
    Mr. Ehlers. How many States have passed ballast water laws 
now?
    Mr. DeBeaussaert. In the Great Lakes States, Michigan is 
the only one that has passed the legislation. It was introduced 
in several States in the last session and did not meet the 
final signature into law. I know it has already been introduced 
in at least one State and I expect again, depending on the 
outcome of the activities here, that other States will consider 
moving forward as well.
    Mr. Ehlers. What have you learned from the shipping 
companies so far? Do they seem perfectly willing to get the 
permits and work with the State, or are they simply going to 
bypass Michigan and go elsewhere?
    Mr. DeBeaussaert. Well, as I said, we already have 12 
individual ships that are either under permit or in the process 
of doing so. We have had concerns raised about this process 
from others. In fact, some that had expressed concern about the 
practical ability within the current year to implement the 
technology. And there were discussions and provisions that were 
made to allow for, in the current year, some ability for those 
activities to continue under a consent order that would require 
rather than the full technology, the reporting requirements, 
some sampling that would occur as we move forward.
    So there have been and there are ongoing discussions, I 
would say, with the industry on this issue.
    Mr. Ehlers. What confidence do you have that the problem is 
really the ballast water, I should say solely the ballast 
water, as opposed to creatures attaching themselves to the 
hulls of the ship during the ocean voyage, then coming in?
    Mr. DeBeaussaert. Well, as you know, there are a number of 
vectors for introduction, and ballast water is identified as 
the primary for many of these issues. But clearly, the 
comprehensive approach of NAISA that attempted to address a 
number of the vectors really is what is needed. But as well, we 
wouldn't want to stand in the way of individual ballast water 
legislation, if in fact it was protective of the Lakes.
    Mr. Ehlers. Thank you very much. Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman for his questions.
    Mr. Kagen.
    Mr. Kagen. Thank you, Mr. Chairman, and thank you, all of 
you, for taking time to be here today, but more importantly, 
thank you for your advocacy and your hard work for trying to 
guarantee clean and healthy water for successive generations.
    In listening to your testimony, Mr. Becker, about dates and 
time tables, I can tell you from being here for a few weeks, it 
is hard to agree to a time table for anything. But we are still 
working hard to get the job done.
    With regard to the problem of ballast water and ships, it 
reminds me of the history in medicine, forgive me, as I am a 
doctor, I think that way, I look at invasive species much like 
it is an infectious disease. If my good friend, my colleague 
John Hall from New York had dirty hands, I would want him to 
wash his hands before he goes from one sick patient to the 
next. So in some respects, cleaning up the ballast water is a 
lot like washing your hands. In the very beginning of washing 
one's hands, as a physician, going from room to room or patient 
to patient, we didn't have really good techniques. So we 
developed better techniques. So it may not be the shipping 
industry's fault entirely for not knowing how to ``wash their 
hands,'' but I would think that if that is the concern, whether 
the species are inside the tank or outside on the shell, so to 
speak, of the ship, we ought to as Government officials help 
them to develop a better technique so we can prevent further 
infections from these invasive species.
    It is really a shame, I think, that you should have to sue 
your Government for them to do their job. I hope that era has 
ended with the last election.
    Chairman Frank, I would ask you, would you agree with me 
that it might be really time to put our minds together to look 
not just at the invasive species issue, but isn't the invasive 
species in our Great Lakes, the occurrence of them, a symptom 
of a greater problem that we have failed to really secure and 
protect not just our surface water but our ground water? And 
wouldn't you think it might be time that we could all come 
together and move our standards up sufficiently to protect not 
just the surface water but our ground water?
    Mr. Ettawageshik. The tribes have worked with each other 
and also with the Canadian first nations, the tribes in the 
Great Lakes Basin. We have a total of around 160 of the 185 
tribes and first nations in the Great Lakes Basin that have 
signed an accord, the Tribal and First Nations Great Lakes 
Water Accord, that works on the very issues that you are 
talking about, that pledges to work together for the protection 
of both the quantity and quality of the water and work hard to 
assert our rights as both in jurisdiction and also our 
responsibilities to the protection of those waters.
    We look at the water as a whole, not just the lake but the 
rivers, the streams, the ground water, all of this together as 
a package within the basin. And efforts that will work to 
protect that, we believe, are essential. So we have been 
working for many years to do this as part of our traditional 
teachings and it is something that we try to work on within 
ourselves. But also realizing that our best tools as tribal 
governments to get things done are to encourage those other 
governments around us to act on these issues as well.
    So yes, I do think it is time to consider this as a 
package.
    Mr. Kagen. Well, success requires no excuses. So as I see 
some people with excuses, we have failed, everyone has failed 
somewhere along the way, as we have over 150 invasive species 
now.
    I look forward to working with your tribe and other 
organizations to help guarantee our clean water. And I yield 
back the balance of my time.
    Mr. Oberstar. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I very much 
regret not being here earlier. This is a subject of 
considerable interest to me. I recognize that Mr. Grumbles of 
the EPA has left, so one question that I have may put the three 
of you at some disadvantage. Yet you may know about what has 
happened to other waterways. Those of us in this region of 
course also have one of the great wonders of the world, one of 
the great waterways, the Chesapeake Bay. We have focused, it 
seems to me, quite justifiably, on the Great Lakes.
    How national a problem do you think we have here? When you 
consider how far in, well, it is according to how you look at 
it, the Great Lakes are, and that there are waterways that are 
closer to the oceans, one wonders how national, how much worse 
this problem may be or how much it is a matter of certain 
waterways?
    Mr. Ettawageshik. I guess I will start. We look at the 
water throughout, all the water is connected. So all of our 
waterways, while I am here specifically talking about Great 
Lakes, when we try to figure out what is a sacred spot or how 
do we deal with that, for our way of thinking, the whole earth, 
all of creation is sacred and all of creation is 
interconnected. We are within one very large ecosystem with the 
planet. And how things affect the Great Lakes also affect 
everyone else.
    As we heard earlier, when we were talking about where an 
invasive species may first show up and how it may spread, this 
issue is not contained just within one particular region of the 
Country. This has implications that are nationwide.
    Ms. Norton. I am regarding your testimony as a case in 
point, that is what is so troubling about this. I take it that 
that is your testimony, that while you know the Great Lakes 
best you believe this is a national phenomenon, equally found 
in other parts of the Country?
    Mr. Ettawageshik. Yes.
    Mr. DeBeaussaert. If I could just add to that, we are 
obviously concerned about this unique freshwater ecosystem that 
we are blessed with living in and near. But the fact is that 
other States have, beyond Michigan, outside the Great Lakes, 
have enacted legislation dealing with ballast water issues, 
notably California, some of the other west coast States have 
also taken action to try to address this issue.
    So we are here from the Great Lakes States, but we do 
believe that it is also an issue of national significance.
    Ms. Norton. I think it is today, Mr. Chairman, that we have 
on the Floor the Clean Water Act. If I could, within your 
expertise, bring up another issue that perhaps also you have 
seen in the Great Lakes. My family has lived in this region 
since the 1850's. Recently, in recent years, we have found in 
the Chesapeake Bay a phenomenon clearly, we believe, of the 
pollution of the water, of essentially freakish species. You 
talked about invasive species, species that have no predator.
    I wonder if in the Great Lakes you have seen, for example, 
fish with teeth or male/female changes in fish, something that 
also appears to be a new phenomenon, or at least our ancestors 
did not report such widely spread fish--I don't know quite what 
to call them, but species in our waterways. Have you seen such 
changes in your waterways and what would you have to tell us 
about them, if so?
    Mr. Ettawageshik. One of the things that, the women from 
the tribes are the people that are keepers of the water. They 
spend considerable time teaching us and talking to us about 
these things. And they talk about mother earth weeping and 
crying. They talk about these things and the symptoms that we 
get from that. Those symptoms that they talk to us about are 
those very things that you are referring to, where things are 
not the way they were meant to be, and we have fish that have 
tumors, we have fish that are basically being both male and 
female at the same time. We have all different sorts of issues 
like that that occur. And these do occur primarily in hot spots 
of pollution and other issues. But these are the symptoms of 
nature responding to all of the abuse that we have given to 
her.
    So these are things that we are taught that we need to try 
to fix, and we need to try to find ways to deal with them. That 
is our sacred duty and it is the duty of our governments to try 
to make that, help bring about those changes that will fix 
those problems.
    Ms. Norton. Do you foresee a situation--there are some 
rivers and streams that are known for certain kinds of fish, 
for example, unlike the Chesapeake Bay, where you may have this 
huge variety. Do you foresee any possibility in the near future 
where you could have a catastrophic elimination of fish in such 
rivers and stream where, as we know, there are no natural 
predators, and the predator embeds itself? And we are talking 
about, This is a trout stream or some particular fish that is 
particularly known for this particularly waterway?
    Mr. Ettawageshik. We do have those cases. We have cases 
where there are places where we used to catch certain species 
and we no longer can. We have one example within, not just a 
stream, but within the Great Lakes, the lake trout virtually 
collapsed because of the introduction of the lamprey eel. The 
predation of this lamprey has, without controls that have since 
been brought into place, we would have no lake trout fishery at 
all.
    As it is, we have done, there has been a significant amount 
of money, in fact, some of the things that we are asking for 
through the various pieces of legislation that we have been 
talking about today is money to help fund that lamprey control 
project, and to adequately fund it. Because as with everything, 
it has been cut back for a variety of different reasons. We are 
not able to control just that one species, that one invasive 
species that has had serious impact on our fishery.
    But we have other varieties where there are different 
species that are in danger. That is of great concern to us.
    Ms. Norton. Does anyone ever introduce natural predators to 
get the predators out? What would you do if the predators have 
embedded themselves, especially if it is a stream or river 
known for one or two kinds of fish? And you didn't catch them 
in time, what could we do? I guess this is my version of the 
ice caps melting, I don't think you can do anything about 
those.
    But can you do anything about a situation where a predator 
has, as will surely be the case at some place, because some of 
these will be smaller streams, some of these will be streams or 
rivers where people don't have the funds or haven't recognized 
what has happened? Is there anything you can do about it?
    Mr. DeBeaussaert. Part of the comprehensive legislation, 
NAISA did include a rapid response component to try to find 
ways of addressing issues. Obviously the key is prevention, 
preventing these new species from being introduced. But if in 
fact we did see an introduction, some ways of addressing 
quickly and trying to stop the spread of those species. The one 
thing, to get to the earlier question and comment about the 
impact of a single species taking over, that is the concern 
that we have about the Asian carp. We need to have that 
electrical barrier in place, because if those carp did enter 
the Great Lakes, that is our fear, that they would overwhelm 
the native fishery.
    We are also concerned about this new virus that has been 
mentioned, the VHS. We have seen significant mortality of fish 
populations where that virus has been found.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Oberstar. I thank the gentlelady for those very 
thoughtful questions, as always. What we are discussing today 
is just one part of a long chain of assaults upon the waters of 
the Great Lakes. When DDT was found to be destructive in the 
food chain, weakening the shells of eagle eggs, so that the 
young eagles did not form properly, and in the aftermath of 
Rachel Carson's book, Silent Spring, we went after DDT in the 
United States, and eventually phased it out.
    But eagles were still dying and declining in the Great 
Lakes. In 1985, 1986, 1987 and 1988, I held hearings as chair 
of the Investigations and Oversight Subcommittee on water 
quality agreement between the United States and Canada. What we 
learned then was that it was DDT still adversely affecting the 
eggs, where was it coming from? We banned it in America.
    But we allowed it to be exported to Central America, where 
it was used to control insects in the banana plantations. And 
the aerosols were caught up in the upper atmosphere from the 
movement from the Gulf up through the Mississippi flyway and 
deposited within 10 days of spraying on the Great Lakes. So we 
had to extend the reach of the Federal Government to companies 
that were exporting DDT into Central America. And then we had a 
witness, Dr. Henry Lickers, who was a Ph.D microbiologist, a 
member of the Akwesasne Tribe at the eastern end of the Great 
Lakes, also known as the Mohawks. And he testified before the 
Committee that for 2,000 years, his people had lived there and 
lived on fish. And they were extraordinarily healthy.
    But all of a sudden, they were experiencing tremors in 
their joints, they were experiencing three times the national 
average of miscarriages, spontaneous loss of fetus and rare 
types of cancers. It was traced to the mercury in the fish and 
PCBs and toxaphene that was being taken up by the fish that the 
people were eating. So the Akwesasne people had to change their 
eating habits.
    And what did they do, I asked? Well, Dr. Lickers said, they 
switched to meat. And what were the health consequences of 
that? Now we have above average arteriosclerosis, heart attack, 
stroke and high cholesterol and diabetes, as we switched to 
other foods for the energy we once got from the fish.
    So here we have this extraordinary chain of life in the 
Great Lakes. They are a total ecosystem. We have to be 
concerned about intra-Basin transfers, waters of Lake Superior 
that may be carrying species that is deposited in Huron or 
Erie, Ontario or Michigan. So you have made a great 
contribution to our fund of knowledge on the subject, and we 
continue this effort to protect this precious one-fifth of all 
the fresh water on the face of the earth.
    Thank you for your contribution.
    I will call the next panel, but Ms. Johnson and I both have 
to go to the House Floor to complete consideration of the Clean 
Water legislation that has been pending and suspended while 
leadership and others went to the White House on some other 
subject matter of far less importance.
    [Laughter.]
    Mr. Oberstar. We have panel two, Dr. David Lodge, from 
Notre Dame University, my son's school; Adolph Ojard, of the 
Duluth Seaway Port Authority; Andy Buchsbaum, from the National 
Wildlife Federation; John Kahabka of the New York Power 
Authority. I will ask Mr. Kagen of Wisconsin to assume the 
Chair.
    Thank you very much, all the members of the panel. We are 
grateful for your contribution today. I read your statements 
late last night. I wish I could stay for the testimony, but I 
have to be over on the House Floor to complete consideration of 
the bill. I know that you will hear penetrating questions from 
Mr. Baker and from Dr. Ehlers.
    Dr. Lodge, please begin.

     TESTIMONY OF DAVID M. LODGE, PROFESSOR, DEPARTMENT OF 
BIOLOGICAL SCIENCES, UNIVERSITY OF NOTRE DAME; ADOLPH N. OJARD, 
 PRESIDENT, AMERICAN GREAT LAKES PORTS ASSOCIATION, EXECUTIVE 
    DIRECTOR, DULUTH SEAWAY PORT AUTHORITY; ANDY BUCHSBAUM, 
DIRECTOR, NATIONAL WILDLIFE FEDERATION'S GREAT LAKES OFFICE AND 
  CO-CHAIR, HEALING OUR WATERS GREAT LAKES COALITION; JOHN M. 
 KAHABKA, MANAGER OF ENVIRONMENTAL OPERATIONS, NEW YORK POWER 
                           AUTHORITY

    Mr. Lodge. Thank you very much, Mr. Chairman and other 
members of the Committee. I thank you for the opportunity to 
participate in this hearing today. As you may know, I come to 
this issue from the perspective of having worked as a 
biological researcher for on the order of 24 years or so on 
this issue of invasive species, specializing in aquatic 
invasives in particular.
    If I could have my Power Point up, I would appreciate it. 
Together with a number of colleagues, both at Notre Dame and 
other universities, I have collaborations going on addressing a 
number of issues of invasive species, including those involving 
ships and many other related issues.
    I am a past chairman of the National Invasive Species 
Advisory Committee and also recently chaired a committee for 
the Ecological Society of America that published a set of 
recommendations for U.S. policy on invasives. That paper 
includes some consideration of ballast water.
    I am a biologist, and the discussions we have had so far 
have been extremely helpful. But to my mind, it is helpful to 
get below sometimes the abstractions and think about real 
organisms. At least that is what biologists like to do.
    So I want to tell you a story, if you will, involving three 
species. And I want to start with one, a reasonably small fish, 
the round goby, but a fish that has some large impacts. What I 
am illustrating here is the goby can be caught in the 
thousands, on the southern shore of Lake Michigan and 
unfortunately many other places in the Great Lakes, as 
illustrated by this map from the USGS, where you see in red 
that this goby, having been introduced by ballast water, has 
spread throughout the Great Lakes, and very importantly, not 
only within the Great Lakes, but as you will see, is traveling 
down the Illinois River, having had access to it through the 
Chicago Sanitary and Ship Canal, and is well on its way to 
colonizing not only the Illinois River but the Mississippi 
River and probably far beyond.
    So one message I want to leave you with is that what 
happens in the Great Lakes does not stay there. The opposite 
may be true of various activities in Las Vegas, but it is not 
true of the Great Lakes. Unfortunately, the organisms that 
arrive in the Great Lakes will come to your Congressional 
districts before too long, whether they are in Oregon or 
California or Arizona or New York or wherever. The Great Lakes 
are a beachhead for invasions for freshwater ecosystems in 
North America. So wherever one is in North America, one has to 
care about what is going on in the Great Lakes.
    Now, I have had the experience in southern Lake Michigan of 
fishing and catching nothing but small, useless round gobies 
where many people used to catch the very highly valued yellow 
perch and other species. So round gobies have damaged both 
commercial and recreational fisheries, and especially in 
concert with the impacts of other species, two others which I 
illustrate here, two species of mussels, the zebra mussel and 
the quagga mussel. We are seeing increasingly large impacts 
throughout the ecosystems of the Great Lakes.
    Let me just quickly go through a few of these, some of 
which have already been mentioned. Many people are familiar 
with these very high, direct financial damages done to 
industrial facilities for zebra mussels. Those damages, a bare 
minimum estimate, as we have already heard, of $150 million a 
year that doesn't even begin to include the other sorts of 
ecosystem impacts that I am going to go on to describe, which 
include the loss of recreational and commercial fisheries, 
especially for whitefish in Lakes Huron and Michigan, where we 
see a very strong association between the increase in abundance 
of mussels and the decline in the native food for these very 
important whitefish. So that fishery has declined about 70 
percent since the 1990's.
    Round gobies themselves consume many mussels, from which 
they derive a number of dangerous compounds, including 
botulinum toxin, because the mussels create a great environment 
for the bacteria that produces this toxin. That toxin in turn 
is transferred to very valuable fishes, including those 
consumed by humans, like smallmouth bass. So not only do we see 
the transfer of some dangerous compounds up the food web 
potentially to humans, we also see increasingly, especially in 
Lakes Erie and Ontario, the loss of many fishes in recent 
years.
    We see direct impacts on human recreation from these 
windrows of mussel shells. We see taste and odor problems in 
drinking water caused by the increasingly abundant blooms of 
harmful algae strongly associated with these mussels.
    And I could go on and on with many species, as I summarized 
in the written testimony, could go on and on, because we know 
of over 180 species in the Great Lakes, which means that they 
are just like the other places that we know about, an 
increasing number of species. And in the Great Lakes we know 
that in recent years, about 70 percent of those species have 
come from ballast water, about 40 percent of the ship-borne 
alien animals cause the sorts of damages that I have talked 
about already.
    And this again, to close with the same theme that I began 
with, this is not an issue limited to the Great Lakes. The 
zebra mussels, illustrated here, are a great example of this. 
The black dots are where they already are. They have spread 
down the Mississippi, and this invasion, like many other 
invasions, is not over. We have heard again that quagga mussels 
were recently discovered in the Colorado River and Lake Mead. 
We in fact predicted in a paper to appear in print shortly that 
this would happen. Unfortunately, that prediction has come 
true.
    So we have to care about the ships that originally 
introduce organisms into the Great Lakes as the beachhead, and 
we have to care a great deal about what is going to happen from 
the Great Lakes as recreational boaters and other pathways 
disperse those species from the Great Lakes.
    Thank you.
    Mr. Kagen. [Presiding] Thank you, Doctor.
    Next we have Mr. Adolph Ojard, Executive Director of the 
Duluth Seaway Port Authority. Welcome, and thank you for being 
here.
    Mr. Ojard. Thank you for having me.
    Mr. Chairman, members of the Subcommittee, again, I am 
Adolph Ojard, Executive Director of the Duluth Seaway Port 
Authority, Duluth, Minnesota. I am also here today as the 
President of the American Great Lakes Ports Association, an 
organization that represents the 12 public port authorities on 
the U.S. side of the Great Lakes.
    While I am here specifically on behalf of the Great Lakes 
port community, I can assure you that the views I express today 
are shared by the majority of the private maritime interests in 
the Great Lakes St. Lawrence Seaway system.
    Although today's hearing focuses on the Great Lakes aquatic 
invasive species, I think we need to understand that this is 
both a national and an international issue. While various 
witnesses testifying today will offer different perspectives, 
we all agree on one thing: Congress must act quickly to enact 
national programs requiring the treatment of ships' ballast 
water.
    The Great Lakes Seaway transportation corridor continues to 
develop as an essential component of our national 
transportation policy. This is the longest and most extensive 
deep draft waterway in the world, 2,342 miles from Duluth, 
Minnesota to the Atlantic Ocean.
    Water-borne transportation is widely regarded as the 
safest, cleanest and least costly mode of commercial 
transportation. Ships emit one-tenth of the greenhouses gases 
of trucks and half that of trains. One maritime accident is 
recorded for every 14 rail accidents and 75 truck accidents.
    Unfortunately, the emergency of aquatic invasive species 
has become our industries' Achilles heel. We stand ready to 
solve this problem and let me assure you that we will solve the 
problem.
    The focus of this hearing is impact of aquatic invasive 
species on the Great Lakes, and for the Great Lakes shipping 
industry that impact is the fear of isolation and the fear of a 
growing patchwork of differing and conflicting State laws, each 
attempting to regulate ships engaged in interstate and 
international commerce. Since most Great Lakes vessels load and 
discharge in numerous jurisdictions, the potential for chaos is 
considerable.
    Since the year 2000, the States of New York, Michigan, 
Illinois, Indiana, Minnesota, Wisconsin have all considered 
ballast water regulations. Many of these efforts have been 
misguided and reflect the lack of maritime experience at the 
State level. To date, only the State of Michigan has actually 
enacted a ballast water statute. That law requires all ships 
conducting port operations in Michigan ports to obtain a permit 
from the State. Further, it requires that a ship owner either 
certify that it will not discharge ballast in Michigan waters 
or that it will do so only after treating the ballast with one 
of four treatment systems. These systems are arbitrarily 
selected by the Michigan Department of Environmental 
Management. None of them have been scientifically tested and 
shown to prevent the introduction and spread of invasive 
species. Minnesota and Wisconsin also have bills pending.
    So what is the impact on Great Lakes commerce? Well, if you 
can imagine four ports of call, four permit applications, four 
permit fees, application of an uncertified shipboard treatment 
system, countless opportunities for delay and disruption, and 
the question then really remains, will the ships and the 
vessels continue to call?
    It is also important to note that the States do not want to 
get involved in the regulation of ballast water. Based on our 
experience, all branches of State Government recognize the 
negative consequences of their action. They understand the harm 
they inflict on their own citizens and their own economies by 
adding costs and isolating valuable Great Lakes maritime 
commerce.
    Yet the continuing lack at the Federal level has driven 
States to attempt independent remedies. With minimal 
understandings of the intricacies of maritime industry, the 
legislation that is being developed is ineffective at best, 
impractical at most. Further complicating the issue is that 
State regulatory bodies have little or no knowledge of 
shipboard issues.
    Therefore, when Federal standards are finally enacted, the 
U.S. Coast Guard must be the regulatory agency. Vessel 
operations are highly complex. The Coast Guard is the only 
agency with the knowledge, experience and skill to effectively 
regulate vessel operations.
    The negative impacts of aquatic invasive species are not in 
dispute. The need for both the environment and the industry is 
for Congress to create a regulatory framework within which the 
private sector can begin making necessary investments to solve 
this problem. I believe we can protect the aquatic environment 
and maintain a healthy shipping industry. There is a win-win 
scenario, and it is not far out in terms of our ability to 
succeed.
    So what is needed? We need to find enforceable Federal 
standards for ballast water treatment. A Federal preemption 
over State and local jurisdiction. Uniform national standards 
and regulations. Incentives to encourage vessel operators to 
begin early installation of ballast water treatment systems, 
and the authorization of the Coast Guard to exclusively 
regulate shipboard ballast operations.
    Again, I thank the Subcommittee for hosting this hearing, 
for being sensitive to the need and for moving quickly on this 
legislation. I would welcome any questions. Thank you.
    Mr. Kagen. Thank you for your considered testimony and your 
opinions. Being a neighbor from Wisconsin, thanks for hiking in 
here today. Your accent was well appreciated.
    Mr. Ojard. I appreciate that.
    [Laughter.]
    Mr. Kagen. Next we have Mr. Andy Buchsbaum, Director of the 
Great Lakes Office of the National Wildlife Federation and also 
testifying on behalf of the Healing Our Waters Great Lakes 
Coalition. Welcome.
    Mr. Buchsbaum. Thank you, Mr. Chairman. I would like to 
congratulate you on getting my name right the first time 
around. I don't know if you know any other Buchsbaums anywhere 
else, but it is a tough name.
    The Healing Our Waters Coalition is a coalition of 90 
organizations, State, regional, local and national, dedicated 
to protecting and restoring the Great Lakes. It was founded by 
generous support from the Wege Foundation, the Joyce 
Foundation, and we are very involved not only with the invasive 
species debate, invasive species issues, but also with Great 
Lakes restoration generally. I will get to that in a second.
    You have already heard from many people today about the 
importance of the Great Lakes, the importance not only to the 
ecology of the region but to the economy of the region. You 
have already heard about the general problem of invasive 
species, so I am going to focus on a few things. One hundred 
eighty-three species so far in the Great Lakes that we know of, 
invasives, you have heard that, one every 28 weeks. About eight 
months, it is accelerating, one every 28 weeks comes in.
    Let me follow up on something that Dr. Lodge was talking 
about, and that is one of the huge impacts, which involves a 
freshwater shrimp called diporeia. If I could have one of the 
slides called up, I have a few slides.
    [Slide sown.]
    Mr. Buchsbaum. Diporeia are tiny freshwater shrimp that 
form about 80 percent of the food at the bottom of the Great 
Lakes. Their population gets to about 10,000 organisms per 
square meter. This picture of Lake Michigan, all those dark 
blue spots are at the 10,000 per square meter level. As it 
lightens up, please give me the next slide.
    [Slide shown.]
    Mr. Buchsbaum. You can see, as it gets lighter and lighter, 
there are fewer and fewer of these things.
    [Slide shown.]
    Mr. Buchsbaum. And then finally, what you see here is a 
crash of this fundamental part of the Great Lakes food web. 
These tiny freshwater shrimp have virtually disappeared over 
large stretches of Lake Michigan. Advance it one more time.
    [Slide shown.]
    Mr. Buchsbaum. Ninety-four percent decline in 10 years. 
This is the basis of the Great Lakes food web.
    Next, slide, please.
    [Slide shown.]
    Mr. Buchsbaum. Dr. Tom Nalepa is the person who did this 
modeling and who did the sampling to establish that. He is a 
NOAA scientist from the Great Lakes Environmental Research Lab. 
He began sampling for diporeia for other reasons back in the 
1980's, found this phenomenon and then quickly began sampling 
other places.
    For Lake Huron, he began sampling in the year 2000. Look at 
what has happened in just three years, a 57 percent decline.
    When Congressman Ehlers said that this is an ecological 
disaster happening, this is one huge example of what he meant.
    Next slide, please.
    [Slide shown.]
    Mr. Buchsbaum. Zebra mussels have been blamed for a lot of 
the decline of the diporeia. But the zebra mussels themselves 
are now declining, because quagga mussels have come in. Look at 
the increase in quagga mussels in the last 10 years. This is 
again from Dr. Nalepa's slides.
    One more slide, I think that wraps it up.
    [Slide shown.]
    Mr. Buchsbaum. This is also the quagga mussels for Lake 
Huron.
    Next, and we are done.
    [Slide shown.]
    Mr. Buchsbaum. This is massive. This is something that we 
featured, the slides you have in my testimony, it is much more 
lengthy. We featured some of this, Dr. Nalepa's work, in this 
report that you also have called Ecosystem Shock, which is 
something NWF did in 2004. I invite you to read through that 
and you will see some of the statistics and some of the 
descriptions in more detail.
    Scientists have done another report, though, on the Great 
Lakes and released it just over a year ago. It was called 
Prescription for Great Lakes Protection and Restoration. Some 
of the region's leading scientists, joined by some of the 
Nation's leading scientists, over 200 right now, issued this 
report. They concluded that the Great Lakes are suffering right 
now ecosystem breakdowns.
    What I just showed you, the diporeia crash, is one of the 
leading breakdowns, but it is not the only one. You have heard 
some others today. They say the reasons for the breakdowns is 
because there is a combination of stresses that have injured 
the Great Lakes. They have injured, and you will appreciate 
this, Mr. Chairman, they have injured what they call its immune 
system, its ability to respond to stress, its buffering 
capacity.
    Invasive species are among probably the lead of those 
stressors. Because how can a system reach equilibrium if once 
every 28 weeks another huge stressor comes in that it can't 
handle?
    Because of this, the scientists actually recommended doing 
things not just to restore the Lakes but to stop the new 
stressors from coming in. They say we can't restore the Lakes 
properly unless these new stressors are stopped.
    So the scientists and the Healing Our Waters Coalition and 
the Great Lakes Regional Collaboration, everyone who studies 
this problem says the top priority has to be a comprehensive 
approach to stopping invasive species like the National Aquatic 
Invasive Species Act that was introduced last week in the 
Senate, has been pending last year. It is comprehensive, 
because ballast water, although a huge cause, is not the only 
cause. There are others.
    The other top priority is to stop the signature species, 
the signature threat, the Asian carp, from coming up the canal. 
Ten to twenty million dollars now will save tens to hundreds of 
billions of dollars later. We saw what happened with inaction 
with Katrina. We know that we can do better. There is a very 
easy solution out there. This one is not rocket science, 
Congressman Ehlers. This one is a lot easier than that, it is 
an electric barrier, electric current underneath the canal. We 
need to do that.
    Then finally, if you will indulge me for 20 more seconds, 
we have to restore what we have lost. That is the purpose 
behind the Great Lakes Collaboration and Implementation Act, 
which Congressman Ehlers and others introduced yesterday and 
which they introduced last year. That will restore that immune 
system that we need. Because given the fact that these things 
are here to stay, we need to bolster the health of the Great 
Lakes so they can take care of themselves. We can't do it for 
them, but we can help them do it for themselves.
    With that, I have a number of other comments that I can't 
get to which address some of what Congressman Baker said and 
others in terms of the EPA and Coast Guard role. But I will 
save that for questions. Thank you very much.
    Mr. Kagen. I appreciate your comments, and if we don't have 
time for questions because of the vote, I would certainly 
appreciate your written commentary from questions you would 
have expected us to ask.
    And finally we have John Kahabka, the Manager of 
Environmental Operations from the New York Power Authority. You 
have the floor.
    Mr. Kahabka. Good afternoon, Mr. Chairman, and thank you.
    My name is John Kahabka, I serve as the Manager of 
Environmental Operations for the New York Power Authority. The 
Power Authority is the Nation's largest State-owned electric 
utility, with 18 generating facilities and more than 1,400 
circuit miles of transmission lines. We own and operate our 
facilities without the use of tax dollars or State credit. We 
finance our operations with earned revenues from sale of 
electricity and through bonds and notes for capital projects.
    In addition, for a number of years, I have also represented 
the American Public Power Association on the Aquatic Invasive 
Species Task Force of the interagency committee established by 
the Nonindigenous Aquatic Nuisance Prevention and Control Act 
of 1990. Among the electrical generation facilities owned by 
the Power Authority are two major hydroelectric facilities 
within the Great Lakes Basin, several small hydro facilities, a 
relatively large pump storage facility in the northern 
Catskills, a number of fossil-fired plants in New York City.
    At the time when the zebra mussel first made its 
appearance, the Authority owned and operated two additional 
nuclear power plants, one located on Lake Ontario and the other 
one actually on the Hudson River. We have always considered 
that the impacts on our operations by aquatic invasives, 
especially Dreissena Polymorphia, the zebra mussel, to be 
critical to our continued economic operation.
    Recognizing the need for immediate measures to address this 
problem, in 1990 we instituted a monitoring and mitigation 
program at all our facilities. In May of 1990, we installed a 
chlorination system at the 2,400 megawatt Niagara Hydro project 
in western New York. The initial system cost us over $100,000 
and we are currently in the beginning phases of refurbishing 
that system. We expect those costs to be anywhere between 
$200,000 to $250,000 with annual control efforts ranging 
between $30,000 to $50,000.
    At our St. Lawrence project, we have essentially a similar 
system. At our 1,000 megawatt pump storage project, Blenheim-
Gilboa in the Catskills, we installed a state of the art, at 
the time, experimental copper ion generator in an effort to 
reduce our chemical discharges. At our Hinckley, Crescent and 
Vischer Ferry small hydro projects within the Mohawk drainage 
basin, we installed a filtration system and use mechanical 
cleaning.
    The FitzPatrick plant, which is now owned by Entergy 
Nuclear, back in 1991 when we owned it, we installed a 
chlorination system at that facility that cost about $175,000 
at that time. Conversations with Entergy Nuclear recently have 
indicated they are spending between $100,000 to $150,000 a year 
in maintaining that system.
    At the Indian Point facility I referenced earlier, their 
annual operating costs are roughly about $350,000, just to 
control biofouling.
    The use of Great Lakes water for power production is 
significant. The 2005 report by the Northeast-Midwest Institute 
calculated that there are some 535 power plants within the U.S. 
portion of the Great Lakes Basin with a combined generating 
capacity of over 50,000 megawatts. That comprises roughly 13 
nuclear plants and 175 coal-fired power plants. By interfering 
with maximum effective operations of the power plants, they can 
jeopardize, zebra mussels, that is, or biofoulers, can 
jeopardize reliable supply of electricity.
    The worst case impact from Dreissena in our facilities 
would be the loss of generation. Replacing our hydropower, 
which we sell typically at 1 to 2 cents per kilowatt hour, 
would force us to go out and by it on the market, anywhere from 
5 to 10 cents a kilowatt hour. In 1995, Chuck O'Neill of Sea 
Grant reported on the economic impacts of zebra mussels. I want 
to just bring out that from Chuck's work, it was shown that the 
expenditure on zebra mussel control only at the nuclear power 
stations was around $786,000, and at fossil stations, about 
$146,000. All these expenditures included plant retrofits, 
chemical control and prevention projects.
    The Power Authority to date has overcome a lot of these 
initial effects, but it has not been without impacts to our 
operations and our costs. The zebra mussel infestation has 
proved to be one of our more daunting environmental challenges 
and will continue to challenge us in the future.
    The Power Authority supports the efforts of the State and 
Federal Government to regulate and control ballast water, as 
this is clearly the vector of choice for the movement of 
aquatic invaders. Continuing funding of the monitoring and 
control programs and research is essential. Without these, it 
is certain that additional invasives, as you have heard, of 
course, many times today, will affect the Great Lakes and their 
tributaries.
    On behalf of the Power Authority, I want to express my 
appreciation for your taking the attention to hear my 
testimony. If there are any questions, I would be happy to 
answer them. Thank you.
    Mr. Kagen. Thank you very much for enlightening us, with no 
joke being intended.
    Mr. Gilchrest, do you have any questions?
    Mr. Gilchrest. Thank you very much.
    I represent the Chesapeake Bay, and many of the problems 
that you are describing we have in the Bay area. It seems that 
the shrimp that you are talking about their decline is similar, 
but I think it is worse in the Great Lakes, to our oysters. We 
have lost in the last 100 years about 99 percent of the 
oysters, which was a form of the ecosystem, not at the bottom 
of the food chain, but they had an immense filtering capacity.
    Can you specifically identify the water quality issue that 
is decimating these shrimp? Or is something else eating them?
    Mr. Lodge. I will take a stab at it. I think the short 
answer is, the exact links are unknown. What is known is that 
wherever these mussels have become abundant, the diporeia, this 
little shrimp-like organism, has declined. I don't think anyone 
really understands exactly what is going on. I myself in the 
past have been something of a skeptic about this. But the 
pattern is absolutely compelling to me these days, as you saw 
from the maps.
    Mr. Gilchrest. So the new mussels have also come in, likely 
in ballast water?
    Mr. Lodge. Yes. Both mussels it seems clear came in ballast 
water. The difference between the mussels, I am almost inclined 
to say, are things that only a biologist can get excited about.
    Mr. Gilchrest. But they are two different species, the 
zebra mussels and the diporeia is another mussel?
    Mr. Lodge. No, the----
    Mr. Gilchrest. The diporeia is a shrimp?
    Mr. Lodge. The diporeia is a little shrimp. The two mussels 
are called zebra mussels and quagga mussels. They are two 
different species, and in fact, they do have some important 
ecological differences, with quagga mussel living quite happily 
more deeply in the Lakes.
    Mr. Gilchrest. But the zebra mussels seem not to have an 
effect on the shrimp?
    Mr. Lodge. No, I believe it is the case that both. And in 
fact, I think it may be the case that in the past in many 
surveys, these two mussel species have not been sufficiently 
distinguished from one another, because they are easy to mix 
up.
    Mr. Gilchrest. Well, when you look at them, they look the 
same.
    Mr. Lodge. If I had them here today, I would not be able to 
tell them apart.
    Mr. Gilchrest. So as far as our assistance with you is 
concerned, this aquatic invasive species bill needs to get 
moving on the House side. There is a recognition, and I like 
the concept that the immune system has been degraded. I will 
start using that in my district. The immune system.
    But it is an invasive species problem, it is general human 
activity and all that involves degrading nature's design, 
again, fundamentally. Part of this process, though, is an 
effort to restore habitat and water quality. So we will, Mr. 
Chairman, we will do all we can to move the type of 
legislation, hopefully in this Congress, on the invasive 
species, those kinds of pieces of legislation, do all we can 
before this thing is a foregone conclusion.
    One last very quick comment. On top of all this lair of 
problems is global warming, which will have other effects that 
we are not quite sure of at this time. Yes, sir?
    Mr. Buchsbaum. Congressman, a couple of things. First on 
global warming, there have been three studies that have come 
out in the last few months about the impacts of global warming 
on the Great Lakes that show that it is going to really 
exacerbate all the problems we are talking about. Apparently 
there is a study that just came out last week that shows that 
Lake Superior's water temperature has raised 4 degrees, which 
has enormous implications for the entire ecosystem and for the 
fishing and for everything else. Ice fishing has become an 
endangered sport in the northern climates now.
    In addition to that, there is another study, it is not 
complete, but the information was leaked, apparently, it is 
coming out in April, that says that the lake levels of Lake 
Michigan and Lake Huron may decline up to five feet because of 
global warming, which would completely decimate everything, 
completely change everything. And then there is another study 
that came out a few months ago that predicts that Lake Erie may 
shrink by 15 percent.
    So if we can't get our house in order before these things 
happen, we will have no chance of responding. That is why, as 
important as invasive species legislation is, that is the 
prevention piece. We also have to do the restoration piece.
    Congressman Rom Emanuel today, in commenting on his bill at 
a press conference, said that he recognized that it is not just 
the Great Lakes that are facing these major restoration 
problems. He specifically was talking about the Chesapeake Bay. 
So I think that in the future, we need to begin pooling our 
resources and knowledge, and also our political strategies to 
get these major restoration bills through. Because a lot of 
change has already happened, and we need to address that.
    Mr. Gilchrest. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Kagen. Thank you very much for referring to the immune 
system, since I am immunologist. I used my fundraising 
capabilities as an immunologist to get here.
    [Laughter.]
    Mr. Kagen. We are going to have to break and end the 
meeting, but I want to have all of you on record with regard to 
a question that comes up with regard to intra-lake shipping, as 
to whether or not this poses a threat for spreading an invasive 
species from one lake to the other. Would you all agree that 
the answer would be yes, that this is an issue, and that a 
ship, whether it is traveling intra-lake or from overseas 
should have the same rules applied to them?
    Mr. Lodge. I would agree all the evidence would suggest 
that ships, lakers, so-called laker ships moving within the 
Great Lakes, are likely to be an important pathway by which 
species get spread around in a lake.
    Mr. Ojard. Yes, the lakers will spread, but we are not 
going to introduce through the lakers. If we have good ballast 
water legislation, adequate systems onboard the ocean ships, we 
are going to significantly retard the influx of invasives into 
the system and there would be very little to spread around.
    Ocean ships are moving throughout the Great Lakes, so they 
in essence are spreading as well as the lakers themselves.
    Mr. Kagen. Thank you. Andy?
    Mr. Buchsbaum. Yes, the lakers definitely spread what is 
there. I think that it is unlikely that the standards you would 
use for lakers would be the same as the standards you would use 
for ocean-going vessels. I think the problems and solutions 
would be different. You could probably find some different 
solutions for lakers than you can for the ocean-going vessels.
    Certainly, if we act quickly on the ocean-going vessels, 
then I agree definitely with Mr. Ojard, that you stop the 
influx. These things are going to spread through the Great 
Lakes regardless of whether the lakers are spreading them or 
not. So it is a question of how you reach equilibrium. Thank 
you.
    Mr. Kagen. The Subcommittee would be interested in your 
written recommendations pertaining to the lakers and the ocean 
vehicles.
    John?
    Mr. Kahabka. I would agree with the panelists as well, that 
the movement will happen.
    Mr. Kagen. Thank you very much. This will end today's 
hearing. We appreciate very much your coming here and your hard 
work. It is well appreciated. Thank you.
    [Whereupon, at 4:17 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4785.226
    
    [GRAPHIC] [TIFF OMITTED] T4785.227
    
    [GRAPHIC] [TIFF OMITTED] T4785.009
    
    [GRAPHIC] [TIFF OMITTED] T4785.010
    
    [GRAPHIC] [TIFF OMITTED] T4785.011
    
    [GRAPHIC] [TIFF OMITTED] T4785.012
    
    [GRAPHIC] [TIFF OMITTED] T4785.013
    
    [GRAPHIC] [TIFF OMITTED] T4785.014
    
    [GRAPHIC] [TIFF OMITTED] T4785.015
    
    [GRAPHIC] [TIFF OMITTED] T4785.016
    
    [GRAPHIC] [TIFF OMITTED] T4785.017
    
    [GRAPHIC] [TIFF OMITTED] T4785.018
    
    [GRAPHIC] [TIFF OMITTED] T4785.019
    
    [GRAPHIC] [TIFF OMITTED] T4785.020
    
    [GRAPHIC] [TIFF OMITTED] T4785.021
    
    [GRAPHIC] [TIFF OMITTED] T4785.022
    
    [GRAPHIC] [TIFF OMITTED] T4785.023
    
    [GRAPHIC] [TIFF OMITTED] T4785.024
    
    [GRAPHIC] [TIFF OMITTED] T4785.025
    
    [GRAPHIC] [TIFF OMITTED] T4785.026
    
    [GRAPHIC] [TIFF OMITTED] T4785.027
    
    [GRAPHIC] [TIFF OMITTED] T4785.028
    
    [GRAPHIC] [TIFF OMITTED] T4785.029
    
    [GRAPHIC] [TIFF OMITTED] T4785.030
    
    [GRAPHIC] [TIFF OMITTED] T4785.031
    
    [GRAPHIC] [TIFF OMITTED] T4785.032
    
    [GRAPHIC] [TIFF OMITTED] T4785.033
    
    [GRAPHIC] [TIFF OMITTED] T4785.034
    
    [GRAPHIC] [TIFF OMITTED] T4785.035
    
    [GRAPHIC] [TIFF OMITTED] T4785.036
    
    [GRAPHIC] [TIFF OMITTED] T4785.037
    
    [GRAPHIC] [TIFF OMITTED] T4785.038
    
    [GRAPHIC] [TIFF OMITTED] T4785.039
    
    [GRAPHIC] [TIFF OMITTED] T4785.040
    
    [GRAPHIC] [TIFF OMITTED] T4785.041
    
    [GRAPHIC] [TIFF OMITTED] T4785.042
    
    [GRAPHIC] [TIFF OMITTED] T4785.043
    
    [GRAPHIC] [TIFF OMITTED] T4785.044
    
    [GRAPHIC] [TIFF OMITTED] T4785.045
    
    [GRAPHIC] [TIFF OMITTED] T4785.046
    
    [GRAPHIC] [TIFF OMITTED] T4785.047
    
    [GRAPHIC] [TIFF OMITTED] T4785.048
    
    [GRAPHIC] [TIFF OMITTED] T4785.049
    
    [GRAPHIC] [TIFF OMITTED] T4785.050
    
    [GRAPHIC] [TIFF OMITTED] T4785.051
    
    [GRAPHIC] [TIFF OMITTED] T4785.052
    
    [GRAPHIC] [TIFF OMITTED] T4785.053
    
    [GRAPHIC] [TIFF OMITTED] T4785.054
    
    [GRAPHIC] [TIFF OMITTED] T4785.055
    
    [GRAPHIC] [TIFF OMITTED] T4785.056
    
    [GRAPHIC] [TIFF OMITTED] T4785.057
    
    [GRAPHIC] [TIFF OMITTED] T4785.058
    
    [GRAPHIC] [TIFF OMITTED] T4785.059
    
    [GRAPHIC] [TIFF OMITTED] T4785.060
    
    [GRAPHIC] [TIFF OMITTED] T4785.061
    
    [GRAPHIC] [TIFF OMITTED] T4785.062
    
    [GRAPHIC] [TIFF OMITTED] T4785.063
    
    [GRAPHIC] [TIFF OMITTED] T4785.064
    
    [GRAPHIC] [TIFF OMITTED] T4785.065
    
    [GRAPHIC] [TIFF OMITTED] T4785.066
    
    [GRAPHIC] [TIFF OMITTED] T4785.067
    
    [GRAPHIC] [TIFF OMITTED] T4785.068
    
    [GRAPHIC] [TIFF OMITTED] T4785.069
    
    [GRAPHIC] [TIFF OMITTED] T4785.070
    
    [GRAPHIC] [TIFF OMITTED] T4785.071
    
    [GRAPHIC] [TIFF OMITTED] T4785.072
    
    [GRAPHIC] [TIFF OMITTED] T4785.073
    
    [GRAPHIC] [TIFF OMITTED] T4785.074
    
    [GRAPHIC] [TIFF OMITTED] T4785.075
    
    [GRAPHIC] [TIFF OMITTED] T4785.076
    
    [GRAPHIC] [TIFF OMITTED] T4785.077
    
    [GRAPHIC] [TIFF OMITTED] T4785.078
    
    [GRAPHIC] [TIFF OMITTED] T4785.079
    
    [GRAPHIC] [TIFF OMITTED] T4785.080
    
    [GRAPHIC] [TIFF OMITTED] T4785.081
    
    [GRAPHIC] [TIFF OMITTED] T4785.082
    
    [GRAPHIC] [TIFF OMITTED] T4785.083
    
    [GRAPHIC] [TIFF OMITTED] T4785.084
    
    [GRAPHIC] [TIFF OMITTED] T4785.085
    
    [GRAPHIC] [TIFF OMITTED] T4785.086
    
    [GRAPHIC] [TIFF OMITTED] T4785.087
    
    [GRAPHIC] [TIFF OMITTED] T4785.088
    
    [GRAPHIC] [TIFF OMITTED] T4785.089
    
    [GRAPHIC] [TIFF OMITTED] T4785.090
    
    [GRAPHIC] [TIFF OMITTED] T4785.091
    
    [GRAPHIC] [TIFF OMITTED] T4785.092
    
    [GRAPHIC] [TIFF OMITTED] T4785.093
    
    [GRAPHIC] [TIFF OMITTED] T4785.094
    
    [GRAPHIC] [TIFF OMITTED] T4785.095
    
    [GRAPHIC] [TIFF OMITTED] T4785.096
    
    [GRAPHIC] [TIFF OMITTED] T4785.097
    
    [GRAPHIC] [TIFF OMITTED] T4785.098
    
    [GRAPHIC] [TIFF OMITTED] T4785.099
    
    [GRAPHIC] [TIFF OMITTED] T4785.100
    
    [GRAPHIC] [TIFF OMITTED] T4785.101
    
    [GRAPHIC] [TIFF OMITTED] T4785.102
    
    [GRAPHIC] [TIFF OMITTED] T4785.103
    
    [GRAPHIC] [TIFF OMITTED] T4785.104
    
    [GRAPHIC] [TIFF OMITTED] T4785.105
    
    [GRAPHIC] [TIFF OMITTED] T4785.106
    
    [GRAPHIC] [TIFF OMITTED] T4785.107
    
    [GRAPHIC] [TIFF OMITTED] T4785.108
    
    [GRAPHIC] [TIFF OMITTED] T4785.109
    
    [GRAPHIC] [TIFF OMITTED] T4785.110
    
    [GRAPHIC] [TIFF OMITTED] T4785.111
    
    [GRAPHIC] [TIFF OMITTED] T4785.112
    
    [GRAPHIC] [TIFF OMITTED] T4785.113
    
    [GRAPHIC] [TIFF OMITTED] T4785.114
    
    [GRAPHIC] [TIFF OMITTED] T4785.115
    
    [GRAPHIC] [TIFF OMITTED] T4785.116
    
    [GRAPHIC] [TIFF OMITTED] T4785.117
    
    [GRAPHIC] [TIFF OMITTED] T4785.118
    
    [GRAPHIC] [TIFF OMITTED] T4785.119
    
    [GRAPHIC] [TIFF OMITTED] T4785.120
    
    [GRAPHIC] [TIFF OMITTED] T4785.121
    
    [GRAPHIC] [TIFF OMITTED] T4785.122
    
    [GRAPHIC] [TIFF OMITTED] T4785.123
    
    [GRAPHIC] [TIFF OMITTED] T4785.124
    
    [GRAPHIC] [TIFF OMITTED] T4785.125
    
    [GRAPHIC] [TIFF OMITTED] T4785.126
    
    [GRAPHIC] [TIFF OMITTED] T4785.127
    
    [GRAPHIC] [TIFF OMITTED] T4785.128
    
    [GRAPHIC] [TIFF OMITTED] T4785.129
    
    [GRAPHIC] [TIFF OMITTED] T4785.130
    
    [GRAPHIC] [TIFF OMITTED] T4785.131
    
    [GRAPHIC] [TIFF OMITTED] T4785.132
    
    [GRAPHIC] [TIFF OMITTED] T4785.133
    
    [GRAPHIC] [TIFF OMITTED] T4785.134
    
    [GRAPHIC] [TIFF OMITTED] T4785.135
    
    [GRAPHIC] [TIFF OMITTED] T4785.136
    
    [GRAPHIC] [TIFF OMITTED] T4785.137
    
    [GRAPHIC] [TIFF OMITTED] T4785.138
    
    [GRAPHIC] [TIFF OMITTED] T4785.139
    
    [GRAPHIC] [TIFF OMITTED] T4785.140
    
    [GRAPHIC] [TIFF OMITTED] T4785.141
    
    [GRAPHIC] [TIFF OMITTED] T4785.142
    
    [GRAPHIC] [TIFF OMITTED] T4785.143
    
    [GRAPHIC] [TIFF OMITTED] T4785.144
    
    [GRAPHIC] [TIFF OMITTED] T4785.145
    
    [GRAPHIC] [TIFF OMITTED] T4785.146
    
    [GRAPHIC] [TIFF OMITTED] T4785.147
    
    [GRAPHIC] [TIFF OMITTED] T4785.148
    
    [GRAPHIC] [TIFF OMITTED] T4785.149
    
    [GRAPHIC] [TIFF OMITTED] T4785.150
    
    [GRAPHIC] [TIFF OMITTED] T4785.151
    
    [GRAPHIC] [TIFF OMITTED] T4785.152
    
    [GRAPHIC] [TIFF OMITTED] T4785.153
    
    [GRAPHIC] [TIFF OMITTED] T4785.154
    
    [GRAPHIC] [TIFF OMITTED] T4785.155
    
    [GRAPHIC] [TIFF OMITTED] T4785.156
    
    [GRAPHIC] [TIFF OMITTED] T4785.157
    
    [GRAPHIC] [TIFF OMITTED] T4785.158
    
    [GRAPHIC] [TIFF OMITTED] T4785.159
    
    [GRAPHIC] [TIFF OMITTED] T4785.160
    
    [GRAPHIC] [TIFF OMITTED] T4785.161
    
    [GRAPHIC] [TIFF OMITTED] T4785.162
    
    [GRAPHIC] [TIFF OMITTED] T4785.163
    
    [GRAPHIC] [TIFF OMITTED] T4785.164
    
    [GRAPHIC] [TIFF OMITTED] T4785.165
    
    [GRAPHIC] [TIFF OMITTED] T4785.166
    
    [GRAPHIC] [TIFF OMITTED] T4785.167
    
    [GRAPHIC] [TIFF OMITTED] T4785.168
    
    [GRAPHIC] [TIFF OMITTED] T4785.169
    
    [GRAPHIC] [TIFF OMITTED] T4785.170
    
    [GRAPHIC] [TIFF OMITTED] T4785.171
    
    [GRAPHIC] [TIFF OMITTED] T4785.172
    
    [GRAPHIC] [TIFF OMITTED] T4785.173
    
    [GRAPHIC] [TIFF OMITTED] T4785.174
    
    [GRAPHIC] [TIFF OMITTED] T4785.175
    
    [GRAPHIC] [TIFF OMITTED] T4785.176
    
    [GRAPHIC] [TIFF OMITTED] T4785.177
    
    [GRAPHIC] [TIFF OMITTED] T4785.178
    
    [GRAPHIC] [TIFF OMITTED] T4785.179
    
    [GRAPHIC] [TIFF OMITTED] T4785.180
    
    [GRAPHIC] [TIFF OMITTED] T4785.181
    
    [GRAPHIC] [TIFF OMITTED] T4785.182
    
    [GRAPHIC] [TIFF OMITTED] T4785.183
    
    [GRAPHIC] [TIFF OMITTED] T4785.184
    
    [GRAPHIC] [TIFF OMITTED] T4785.185
    
    [GRAPHIC] [TIFF OMITTED] T4785.186
    
    [GRAPHIC] [TIFF OMITTED] T4785.187
    
    [GRAPHIC] [TIFF OMITTED] T4785.188
    
    [GRAPHIC] [TIFF OMITTED] T4785.189
    
    [GRAPHIC] [TIFF OMITTED] T4785.190
    
    [GRAPHIC] [TIFF OMITTED] T4785.191
    
    [GRAPHIC] [TIFF OMITTED] T4785.192
    
    [GRAPHIC] [TIFF OMITTED] T4785.193
    
    [GRAPHIC] [TIFF OMITTED] T4785.194
    
    [GRAPHIC] [TIFF OMITTED] T4785.195
    
    [GRAPHIC] [TIFF OMITTED] T4785.196
    
    [GRAPHIC] [TIFF OMITTED] T4785.197
    
    [GRAPHIC] [TIFF OMITTED] T4785.198
    
    [GRAPHIC] [TIFF OMITTED] T4785.199
    
    [GRAPHIC] [TIFF OMITTED] T4785.200
    
    [GRAPHIC] [TIFF OMITTED] T4785.201
    
    [GRAPHIC] [TIFF OMITTED] T4785.202
    
    [GRAPHIC] [TIFF OMITTED] T4785.203
    
    [GRAPHIC] [TIFF OMITTED] T4785.204
    
    [GRAPHIC] [TIFF OMITTED] T4785.205
    
    [GRAPHIC] [TIFF OMITTED] T4785.206
    
    [GRAPHIC] [TIFF OMITTED] T4785.207
    
    [GRAPHIC] [TIFF OMITTED] T4785.208
    
    [GRAPHIC] [TIFF OMITTED] T4785.209
    
    [GRAPHIC] [TIFF OMITTED] T4785.210
    
    [GRAPHIC] [TIFF OMITTED] T4785.211
    
    [GRAPHIC] [TIFF OMITTED] T4785.212
    
    [GRAPHIC] [TIFF OMITTED] T4785.213
    
    [GRAPHIC] [TIFF OMITTED] T4785.214
    
    [GRAPHIC] [TIFF OMITTED] T4785.215
    
    [GRAPHIC] [TIFF OMITTED] T4785.216
    
    [GRAPHIC] [TIFF OMITTED] T4785.217
    
    [GRAPHIC] [TIFF OMITTED] T4785.218
    
    [GRAPHIC] [TIFF OMITTED] T4785.219
    
    [GRAPHIC] [TIFF OMITTED] T4785.220
    
    [GRAPHIC] [TIFF OMITTED] T4785.221
    
    [GRAPHIC] [TIFF OMITTED] T4785.222
    
    [GRAPHIC] [TIFF OMITTED] T4785.223
    
    [GRAPHIC] [TIFF OMITTED] T4785.224
    
    [GRAPHIC] [TIFF OMITTED] T4785.225
    
                                    

</pre></body></html>
